<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 8:58 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard J. Durbin (chairman) 
presiding.
    Present: Senators Durbin, Murray, Pryor, Cochran, Shelby, 
Collins, and Blunt.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. JOHN M. McHUGH, SECRETARY

             OPENING STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Good morning. It's my pleasure to announce 
that the subcommittee is going to receive testimony on the 
fiscal year 2014 budget. I am pleased to welcome the Secretary 
of the Army, the Honorable John McHugh, whom I first ran into 
when we served in the House of Representatives together on that 
political field of battle; and the Chief of Staff of the Army, 
General Raymond Odierno, whom I first met in Iraq near an 
actual field of battle. So, battle tested, our witnesses are 
here today.
    Thank you for coming to talk about the 2014 budget and a 
number of other issues. We're going to discuss during the 
course of this issues ranging from the impact of sequestration 
on the United States Army and the issue of sexual assault and 
its impact on the Army as well.
    For fiscal year 2014, the President's budget request is 
$129 billion in base funding for the Army, $38.6 billion in 
overseas contingency operations (OCO). These requests do not 
reflect implementation of a sequester, which is hitting the 
Army particularly hard in fiscal year 2013 and will be 
compounded if it has to absorb across-the-board cuts again in 
2014.
    General Odierno, you have stated that for fiscal year 2014 
and beyond, sequestration may result in the loss of an 
additional 100,000 soldiers at a minimum from the Active Guard 
and Reserve components. You've warned these reductions will 
impact every base and installation in the Army, and that 
sequestration will result in delays to modernization, the 
inability to reset equipment, and unacceptable reductions to 
unit and individual training. I understand your operation and 
maintenance (O&M) accounts are hit the hardest. Sequestration 
cuts O&M by $4.6 billion in the last half of this fiscal year.
    Secretary Hagel made a difficult but necessary announcement 
last week that civilian furloughs begin in July for 11 days to 
help offset sequester. On top of that, higher wartime operating 
costs could add $8.3 billion to the shortfall expected before 
the end of the year. We received the omnibus reprogramming last 
Friday, which will provide some relief, but the Army still is 
projecting over $3 billion in shortfall in OCO funding this 
year.
    In addition to discussing the budget this morning, we are 
compelled to address the issue relating to sexual assault in 
the military. It was just over 2 weeks ago we learned an Air 
Force official in charge of sexual assault prevention was 
arrested for the very behavior he was charged with preventing. 
We learned last week that a soldier assigned to coordinate 
sexual assault prevention programs has also been charged with 
pandering, abusive sexual contact, assault and maltreatment of 
subordinates. On top of this, there is news of at least two 
different commanders overturning courts martial convictions for 
sexual assault, and an annual Defense Department survey that 
estimated a 35-percent increase in sexual assault between 2010 
and 2012.
    I know that none of the senior leadership in the Pentagon 
takes these matters lightly, but they have--unfortunately, 
these matters have shaken the trust that many have in the 
ability of our military to deal with this, and it's why this 
testimony is important. I look forward to hearing from you 
about what is being done and your recognition of the challenge 
that has been created.
    There are many other issues to cover today as well, planned 
reductions in Army in-strength, troop withdrawals from 
Afghanistan, the strategic shift to the Pacific, modernization, 
suicide rates; the list is pretty lengthy. We sincerely 
appreciate both of you and your service to our Nation, and 
particularly to the men and women in our great United States 
Army. Thanks for your testimony this morning. Your full 
statements will be included in the record.
    Let me turn to my colleagues for opening remarks. Senator 
Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I am pleased to 
join you in welcoming our distinguished witnesses to the 
hearing today. We appreciate the service you are rendering and 
the important roles you have in our United States Army. Looking 
to the Army for leadership among ground troops and positions 
around the world where we are strategically located with forces 
deployed under your command, it's an awesome responsibility, 
and we understand that you can't do it without the support of 
your Government and without the support of the Congress and 
funding the important pay and allowances, other benefits for 
our all-volunteer service. It's an interesting challenge for 
all of us to do that and stay within the budget guidelines that 
are laid before us during this next fiscal year. Thank you.
    Senator Durbin. Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Mr. Chairman. I just want to 
welcome the Secretary and the General back to the committee and 
look forward to hearing from them.
    Senator Durbin. Thanks very much.
    Secretary McHugh, your full statement will be made part of 
the record. Please proceed.

               SUMMARY STATEMENT OF HON. JOHN M. MC HUGH

    Secretary McHugh. Thank you very much, Mr. Chairman, 
Ranking Member Cochran, and Ranking Member of the full 
committee Shelby. It is an honor once again to be with you here 
this year. In respect to the available time, I'll try to 
truncate to some degree my remarks.
    I would, before I turn to the very important items that the 
Chairman mentioned such as sequestration, the 2014 budget as 
submitted by the President, discuss perhaps the most 
fundamental challenge facing this Army today, and that is of 
sexual assault, sexual harassment.
    I want to assure this committee of the Army's unwavering 
commitment to eliminating sexual assault and harassment in our 
ranks. These crimes violate virtually everything the Army 
stands for. They are counter to the core of Army values, and 
they will not be tolerated. Such behavior destroys trust, 
destroys cohesiveness and good order and discipline, and I want 
everyone in this Congress, everyone in this Nation, and most of 
all everyone in our Army ranks to rest assured that we are 
devoted to the prevention, protection, and where appropriate, 
the prosecution of these unacceptable acts.
    As you noted, Mr. Chairman, and as the rest of the 
committee is aware, in recent weeks we have seen several cases 
involving personnel allegedly committing the very acts they 
were assigned to prevent, and committed them against the very 
individuals they were supposed to protect. In working closely 
with the Department of Defense, we are aggressively retraining, 
re-vetting, and recertifying sexual assault response 
coordinators and unit victim advocates throughout the Army. But 
I want to be very clear: We know that this is just a step--a 
step in an ongoing effort to stamp out such abhorrent crimes.
    We're making some progress. In some areas we're making good 
progress. But we will not rest until these acts are not 
tolerated by our culture and are not either perpetuated or 
accepted by our soldiers. We owe America's sons and daughters 
no less, and we look forward to partnering with you on this 
committee and throughout this Congress as we continue in this 
critical effort.
    If I may now, let me turn to the state of our Army, and I 
want to put it very frankly. We find ourselves at a very 
dangerous crossroads. If we as a Nation choose the wrong path, 
it may severely damage our force, further reduce our readiness 
and hamper our national security, and do it for years to come.
    As you gentlemen know, over the last 12 years this Nation 
has built the most combat ready, capable and lethal fighting 
force the world has ever known. From Iraq and Afghanistan to 
the Horn of Africa and Korea, we have fought America's enemies 
and protected our national interests, deterred would-be 
aggressors and supported our allies and our soldiers, and have 
done it with unprecedented skilled, determination, and I think 
undeniably results.
    Unfortunately, today we face an unparalleled threat to our 
readiness, capabilities, and soldier and family programs. That 
danger comes from the uncertainty that you mentioned, Mr. 
Chairman, caused by continuing sequestration, funding through 
repeated continuing resolutions, and significant shortfalls in 
overseas contingency accounts.
    In fiscal year 2013, the blunt axe known as sequestration, 
which struck in the last half of the ongoing fiscal year, and 
was on top of the $487 billion in Department-wide cuts that had 
already been imposed under the Budget Control Act (BCA), forced 
us to take extraordinary measures just to ensure that our war 
fighters had the support and the equipment they needed for the 
current fight. We made those hard decisions, but we did so at a 
heavy price to our civilian employees, to our training needs, 
maintenance requirements, readiness levels, and to a myriad of 
other vital programs that are necessary to sustain our force 
and develop it for the future.
    For the Army, sequestration created an estimated shortfall 
of $7.6 billion for the remaining 6 months of this fiscal year. 
This includes nearly $5.5 billion in Operation and Maintenance, 
Army (OMA) accounts alone, and the impact of this drastic 
decline over such a short period will dramatically, directly 
and significantly impact the readiness of our Total Force. We 
have frozen hiring and released hundreds of temporary and term 
workers. We were forced to reduce training to the squad level 
for our non-deploying units and to cancel all but one of the 
remaining brigade decisive action rotations at our combat 
training centers, and this is on top of the drastic impacts to 
our depot, vehicle, and facility maintenance programs.
    Unavoidably, these negative effects may well cascade into 
the next fiscal year and beyond. And to put it very simply, to 
continue sequestration into fiscal year 2014 and beyond would 
not only be irresponsible and devastating to the Force, but it 
would also directly hamper our ability to provide sufficiently 
trained and ready forces to protect our national interests.
    Moreover, implementation through fiscal year 2021 will 
require even greater force reductions that will dramatically 
increase strategic risk. For example, just to maintain balance, 
as you noted, Mr. Chairman, and as the Chief has said in the 
past, we may have to reduce 100,000 additional personnel across 
all three components. When you couple those with the cuts 
driven already by the BCA, we could see the Army lose up to 
200,000 soldiers just over the next 10 years.
    As a result, to mitigate against continuing impacts of such 
indiscriminate reductions, our fiscal year budget request, as 
is true in both the House and Senate resolutions, does not 
reflect further sequestration cuts. Rather, we attempt to 
protect some of our most vital capabilities which were 
developed over nearly a dozen years of war, and to hedge 
against even further reductions in readiness. We hope that if 
additional funding reductions are required, they can be 
properly back-loaded into later fiscal years and that, as such, 
we will be provided the time and flexibility to implement them 
as responsibly as possible.
    For all its challenges, continued sequestration is only 
part of the danger we face. Since fiscal year 2010, the Army 
has experienced funding through some 15 different continuing 
resolutions. This has caused repeated disruptions in our 
modernization efforts, uncertainty in our contracts, and 
unpredictability for our industrial base. And there is more. 
While we remain at war with a determined enemy in Afghanistan, 
and we simultaneously are conducting retrograde operations, we 
must remember that OCO funding is essential.
    Unfortunately, as you noted, Mr. Chairman, our Army 
currently faces some $8 billion in deficit in overseas 
contingency funding, and assuming the $5 billion in credited 
amounts in the reprogramming that was recently submitted goes 
through, as you noted, Mr. Chairman, that would leave still 
more than $3 billion in shortfalls.
    Although, as noted earlier, we will never allow our war 
fighters to suffer, these OCO shortfalls disrupt our ability to 
repair and reset equipment and directly impact our organic and 
commercial industrial bases. Continued budget uncertainty 
jeopardizes our ability to have the right forces with the right 
training and equipment in the right place to defend our Nation.
    More than ever, as such, we need you, our strategic 
partners, to ensure that America's Army has the resources, 
tools and force structure necessary to meet our requirements at 
home and abroad. The Army's fiscal year 2014 budget request is 
designed to do just that. This submission meets our current 
operational requirements while allowing us to build an army to 
meet future challenges through prudently aligning force 
structure, readiness, and modernization against strategic risk. 
It also sustains our commitment to soldiers, civilians, and 
their family members, many of whom continue to deal with the 
wounds and illnesses and stresses of war.
    From suicide prevention and prosecution, this budget is 
designed to strengthen, protect and preserve our Army family 
using those programs that are efficient, effective, and 
comprehensive. We have a sacred covenant with all who serve and 
with all who support them, and we must never break it.
    Nevertheless, we recognize our Nation's fiscal reality. 
Accordingly, our budget proposal will further these goals with 
a 4-percent reduction from fiscal year 2013's budget base, and 
this will be achieved through prudent, well-planned reductions, 
not indiscriminate slashing.

                           PREPARED STATEMENT

    In conclusion, on behalf of the men and women of your Army, 
thank you again to the members of this great subcommittee and 
full committee for your thoughtful oversight, unwavering 
commitment, and proud partnership. With your support and 
continued leadership and guidance, the Army will remain what 
you have helped build, the finest land force in the history of 
the world. Thank you very much.
    [The statement follows:]

             Prepared Statement of Hon. John M. McHugh and 
                       General Raymond T. Odierno

                              INTRODUCTION

    The Army has been in a state of continuous war for the past 12 
years, the longest in our Nation's history. More than 168,000 Soldiers 
are deployed or forward stationed in nearly 150 countries worldwide. 
The global security environment points to further instability, and the 
Army remains a key guardian of our national security.
    The Army's ability to perform this vital role, and field a ready 
and capable force that meets mission requirements, has been placed at 
risk by fiscal challenges in fiscal year 2013. The combined effects of 
funding reductions due to sequestration, the fiscal uncertainty of 
continuing resolutions and emerging shortfalls in Overseas Contingency 
Operations funding has significantly and rapidly degraded Army 
readiness, which will translate directly into fiscal year 2014 and 
beyond. This lack of predictability makes it difficult to address the 
posture of the Army in fiscal year 2014 with certainty and specificity. 
However, this document will address some of the potential long-term 
effects that fiscal uncertainty will have on the Army.
Landpower for the Nation
    America's Army is the best-trained, best-equipped and best-led 
fighting force in the world, providing a credible and capable 
instrument of national power. Army forces play a fundamental role in 
all but one of the missions specified by the defense strategic 
guidance, Sustaining U.S. Global Leadership: Priorities for 21st 
Century Defense. The Army's ability to provide strategic landpower for 
the Nation makes it uniquely suited to meet these requirements. Army 
forces are tailorable and scalable to meet mission requirements. The 
Army's ability to rapidly deploy task organized forces, from company to 
corps level over extended distances, sustain them and deliver precise, 
discriminate results is unmatched. Highly ready, responsive and capable 
ground forces prevent conflict through deterrence, by shaping Combatant 
Commanders' operational environment and, when necessary, winning the 
Nation's wars.

    ----------------------------------------------------------------

                   MISSIONS OF THE U.S. ARMED FORCES

From ``Sustaining U.S. Global Leadership: Priorities for 21st Century 
        Defense''.
    In all but one mission--maintain a nuclear deterrent--the Army is a 
vital contributor to the Joint Force:
  --Counter terrorism and irregular warfare.
  --Deter and defeat aggression.
  --Project power despite anti-access/area denial challenges.
  --Counter weapons of mass destruction.
  --Operate effectively in cyberspace.
  --Operate effectively in space.
  --Maintain a safe, secure, and effective nuclear deterrent.
  --Defend the homeland and provide support to civil authorities.
  --Provide a stabilizing presence.
  --Conduct stability and counterinsurgency operations.
  --Conduct humanitarian, disaster relief, and other operations.

    ----------------------------------------------------------------

Fiscal Challenges
    The Budget Control Act of 2011 imposed caps on discretionary 
spending that required a $487 billion reduction in planned defense 
spending over 10 years. As a result of these spending cuts and in line 
with the defense strategic guidance announced in January 2012, we are 
reducing Active Army end strength from a wartime high of about 570,000 
to 490,000, the Army National Guard from 358,200 to 350,000, the Army 
Reserve from 206,000 to 205,000 and the Civilian workforce from 272,000 
to 255,000 all by the end of fiscal year 2017. These reductions, which 
began in fiscal year 2012, represent a net loss of 106,000 Soldier and 
Civilian positions.
    The implementation of sequestration in fiscal year 2013 created a 
significant shortfall in Army funding, estimated at $7.6 billion for 
the remaining months of the fiscal year, which includes nearly $5.5 
billion in the Operation and Maintenance account for active and reserve 
component forces. We also face up to a $8.3 billion shortfall in 
Overseas Contingency Operations funding due to increasing costs related 
to the war in Afghanistan. The sharp decline over a short period of 
time significantly impacts readiness which will cascade into the next 
fiscal year and beyond.
    The President's Budget includes balanced deficit reduction 
proposals that allow Congress to replace and repeal the sequester-
related reductions required by the Budget Control Act of 2011 through 
fiscal year 2021. In the absence of such an agreement, the Army may not 
be able to execute the current defense strategic guidance as planned. 
This may compel actions that break faith with our Soldiers, Civilians 
and Families. Full implementation of sequestration and its associated 
outyear budget cuts will require further force structure reductions 
that will greatly increase strategic risk. To maintain balance between 
force structure, readiness and modernization, the Army may have to 
reduce at least 100,000 additional personnel across the Total Force--
the Active Army, the Army National Guard and the Army Reserve. When 
coupled with previously planned cuts to end strength, the Army could 
lose up to 200,000 Soldiers over the next 10 years. If steep cuts are 
required in fiscal year 2014 and beyond, this will create imbalance and 
significantly compound risk. It will cause a disproportionate 
investment across manpower, operations and maintenance, modernization 
and procurement, challenging our ability to sustain appropriate 
readiness in the near term in support of our current defense strategy.
    To some extent, the impact of spending reductions can be mitigated 
if funding is timely and predictable, and cuts are back-loaded, 
enabling the Army to plan, resource and manage the programs that yield 
a highly trained and ready force. Continued fiscal uncertainty, on the 
other hand, poses considerable risk to our ability to maintain a ready 
force. Each continuing resolution prevents new starts for needed 
programs, limits reprogramming actions, creates inefficiency and often 
results in wasteful funding for accounts that we no longer want or 
need. Resource predictability affords the Army the opportunity to plan 
and shape the Army's force for the future within identified budgetary 
constraints.
    The fiscal year 2014 Budget is designed to meet current operational 
requirements and allows us to build an Army to meet our future needs by 
balancing force structure, readiness and modernization. It fully 
supports the Army's central role in the defense strategic guidance. The 
budget request funds balanced readiness across the Total Force while 
retaining agility and capacity. It supports reset and replacement of 
battle-damaged equipment, as well as modernization priorities. A 4 
percent reduction from the fiscal year 2013 Base Budget request 
reflects the Army's acceptance of measured risk, accommodating a 
tightening fiscal environment.

                SOLDIERS DEPLOYED AND FORWARD STATIONED

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                          AMERICA'S ARMY TODAY

    Beyond combat operations in Afghanistan, the Army conducts many 
missions worldwide in support of national security objectives, as well 
as within the United States in support of civil authorities. The Total 
Force provides the foundation for Joint operations. Demand for Army 
forces in Afghanistan will continue to decrease. However, the 
requirement for strategic landpower capable of worldwide deployment 
will endure.

Operations Around the World
    The Army has nearly 80,000 Soldiers currently committed to 
operations around the world--in Afghanistan, Kosovo, the Philippines, 
Horn of Africa, Turkey, Sinai Peninsula and throughout the Middle East. 
Forward-stationed Army forces, in the Republic of Korea, Japan, Europe 
and elsewhere, provide Geographic Combatant Commands with an 
unparalleled capability to prevent conflict, shape the environment and, 
if necessary, win decisively. About 77,000 Soldiers are postured to 
support operations and engagements in the Asia-Pacific region. During 
2012, these Soldiers participated in security cooperation engagements 
in 23 countries across the Pacific. Reductions to our force posture in 
Europe are underway, but a significant Army presence and commitment 
remains. Army forces in Europe remain a critical source of timely 
operational and logistical support for operations in other theaters, 
such as Southwest Asia and Africa. The long-term impacts of 
sequestration and the associated outyear reductions, particularly to 
force structure and readiness, threaten the Army's ability to provide 
trained and ready forces to perform these enduring and vital missions.
            Operations in Afghanistan
    The approximately 60,000 Soldiers deployed to Afghanistan, in both 
conventional and special operations units, remain our top priority. The 
Army provides the corps-level headquarters that form the basic 
structures for conventional forces in the theater, and provides two 
division-level headquarters that control the majority of operational 
activities in the country. The Combined Joint Special Operations Task 
Force is built on a foundation of an Army Special Forces Group. The 
majority of combat units in theater are U.S. Army, and some of the most 
critical enablers such as tactical unmanned aerial vehicles and route 
clearance units are almost exclusively U.S. Army. The critical 
transition to Afghan leadership in security is being enabled by 
thousands of Army NCOs, Officers and Soldiers who have been re-
missioned to advise and assist the increasingly capable Afghan National 
Security Forces. The Army also provides essential logistics 
capabilities that sustain the land-locked Afghan theater. In fact, only 
the Army can provide the theater logistics, transportation, medical and 
communications infrastructure necessary to support operations of this 
size, complexity and duration. The Army has also begun the challenging 
task of equipment and materiel retrograde and refit from Afghanistan. 
It is a daunting task by virtue of the sheer volume of the equipment 
that must be brought home as well; this challenge is compounded by 
harsh geography, adverse weather and ongoing combat operations. Funding 
shortfalls threaten to further extend the timeline and increase overall 
costs.
            Missions as a Member of the Joint Force
    The Army provides a wide range of capabilities as an indispensable 
member of the Joint Force. Every day, the Army maintains deployable 
contingency forces, employs forward-based capabilities, delivers 
humanitarian assistance and conducts multilateral exercises with 
partners and allies. The Army maintains a Global Response Force at 
constant high readiness providing the Nation its only rapid response, 
inland forcible entry capability for unforeseen contingencies. Army 
forces set theaters for the Combatant Commanders maintaining constantly 
the critical logistical, communications, intelligence, medical and 
inland ground transportation infrastructure to support all plans and 
contingencies. We maintain partner relationships that ensure access to 
critical regions around the world. Army commanders and headquarters 
lead Joint Task Forces, plan operations and exercise mission command of 
units across the full range of military operations. Army units provide 
space, air and missile defense capabilities for the Joint Force. We 
build and operate the space and terrestrial communication networks that 
connect our own units, the Joint community, and interagency and 
multinational partners. Soldiers provide essential logistics 
infrastructure, delivering food, fuel, ammunition, materiel and medical 
support that sustain Joint operations ranging from combat to 
humanitarian assistance. In addition, the Army collects and analyzes 
the intelligence that informs our actions and measures our progress, 
and provides the majority of the forces in U.S. Special Operations 
Command.

Missions at Home and Support of Civil Authorities
    The Total Force is prepared to defend the Homeland and routinely 
conducts critical Defense Support of Civil Authorities operations. As 
this past year demonstrated through wildland fires, two major 
Hurricanes (Isaac and Sandy), floods in the heartland and multiple 
winter storm emergencies, the Army is always ready to respond to the 
call of its citizens. The Army does so by performing a wide range of 
complex tasks in support of civil authorities during natural and man-
made disasters, including Chemical, Biological, Radiological, or 
Nuclear incidents, and for counterdrug operations within each State, as 
well as along the approaches to the United States. After Hurricane 
Sandy struck the eastern United States, more than 22,000 active and 
reserve component Soldiers, which included over 10,000 Army National 
Guard Soldiers from 19 States, provided immediate and sustained relief. 
Army Corps of Engineers Soldiers and Civilians pumped more than 475 
million gallons of water from the New York City subway system and all 
tunnels connecting Manhattan.

    ----------------------------------------------------------------

                            THE ARMY VISION

    The Army is regionally engaged and globally responsive; it is an 
indispensable partner and provider of a full range of capabilities to 
Combatant Commanders in a Joint, Interagency, Intergovernmental and 
Multinational environment. As part of the Joint Force and as America's 
Army, in all that we offer, we guarantee the agility, versatility and 
depth to Prevent, Shape and Win.

    ----------------------------------------------------------------

                        THE ARMY FOR THE FUTURE

    The Army for the future will feature regionally aligned and 
mission-tailored forces designed to respond to combatant commander 
requirements to prevent conflict, shape the strategic environment and, 
when necessary, win decisively. Maintaining credible strategic 
landpower requires the Army to continually assess and refine how we 
operate, manage our human capital and increase our capabilities, all 
while mitigating the effects of significant reductions in funding. We 
must exploit our advantages in some key areas such as leader 
development; strategic, operational and tactical mobility; command, 
control, communications, computers and intelligence (C4I) and 
logistics. As we transition over the next 5 to 10 years, this effort 
will be underpinned by a strong institutional Army. This institutional 
Army mans, trains, equips, deploys and ensures the readiness of all 
Army forces. It generates the concepts and doctrine that guides the way 
we operate. It runs the professional military education system, that 
provides our country unparalleled thinkers and leaders at the tactical 
operational and strategic levels. It recruits our Soldiers and prepares 
them for military service. It is the foundation upon which readiness is 
built, enabling the operational Army to provide landpower capability to 
the combatant commander. The institutional Army takes a deep look at 
the future strategic environment to formulate concepts and plans for 
the best mix of capabilities to meet the Nation's land warfare 
challenge--the right skills, right doctrine, right equipment and the 
right qualities in our adaptive leaders.
    The Army must strike a balance between force structure, readiness 
and modernization, in a manner that is mindful of fiscal realities yet 
also provides the Nation with optimized but capable landpower. The 
decisions we have made in response to fiscal year 2013 budget 
reductions will have far reaching impacts on the Army. Clear priorities 
guided these decisions. All Soldiers meeting operational requirements--
such as those deployed to Afghanistan, Kosovo and the Horn of Africa or 
forward stationed in the Republic of Korea--will be prepared and ready. 
We will fund programs related to Wounded Warrior care. Although we 
prioritized resources to ensure we could meet Global Response Force and 
deploying unit training requirements, the rest of the Army will 
experience significant training and sustainment shortfalls that will 
impact readiness this year and will be felt for years to come. The 
Army's ability to perform its missions, as directed in the defense 
strategic guidance, will inevitably be degraded.

Globally Responsive, Regionally Engaged Strategic Land Forces
    Regional alignment will provide Geographic Combatant Commands with 
mission-trained and regionally focused forces that are responsive to 
all requirements, including operational missions, bilateral and 
multilateral military exercises and theater security cooperation 
activities. Regionally aligned forces are drawn from the Total Force, 
which includes Active Army, Army National Guard and Army Reserve 
capabilities. Aligned Corps and Divisions will provide Joint Task Force 
capability to every Geographic Combatant Command. Through regional 
alignment, the Army will maintain its warfighting skills and complement 
these skills with language, regional expertise and cultural training. 
For example, 2nd Brigade of the 1st Infantry Division, stationed at 
Fort Riley, Kansas, is aligned with U.S. Africa Command for fiscal year 
2013. In support of U.S. Africa Command objectives, the brigade will 
conduct engagement activities in 34 African nations over the coming 
year.
    Regionally aligned, mission tailored forces play an essential role 
in the defense strategic guidance, which rebalances to the Asia-Pacific 
region while maintaining our commitment to partners in and around the 
Middle East. Lessening demand for forces in Afghanistan allows our 
aligned units in the Asia-Pacific theater to refocus on supporting U.S. 
Pacific Command's objectives. In addition, U.S. Army Pacific will be 
elevated to a four-star headquarters in 2013. I Corps, stationed at 
Joint Base Lewis-McChord, Washington, is developing Joint Task Force 
command capability, which will provide a deployable headquarters that 
can meet contingencies across the full range of military operations. 
These initiatives will enhance the capability and responsiveness of our 
forces. However, the training shortfalls and readiness impacts of 
sequestration places the Army's ability to provide these critical 
capabilities at risk.

Training for Operational Adaptability
    In recent years the Army has deliberately focused training on 
counterinsurgency and stability operations to support requirements in 
Iraq and Afghanistan. We will build upon that expertise while 
transitioning to a more versatile Army, with operationally adaptable 
land forces that will take on a broader range of missions in support of 
the national defense strategy. Innovative training methods produce 
ready and responsive forces while optimizing our resources. Army units 
train at Combat Training Centers, while deployed and at home station. 
Live, virtual and constructive training enables Army commanders to 
conduct multi-echelon events in a complex environment at home station. 
The Army's Decisive Action Training Environment (DATE), which has been 
incorporated by each of our three maneuver Combat Training Centers, 
creates a realistic training environment that includes Joint, 
Interagency, Intergovernmental and Multinational partners against a 
wide range of opportunistic threats.
    Sequestration has had an immediate impact on the Army's ability to 
train at every level--individual Soldier, Brigade Combat Team and 
deployable headquarters. We may be forced to cancel all but 2 of the 
remaining fiscal year 2013 brigade-level Decisive Action rotations at 
our Maneuver Combat Training Centers unless additional funds become 
available. Training in fiscal year 2014 and beyond remains at risk as 
well. With sequestration, the Army will not be able to fully train our 
Soldiers, whether through professional military education or collective 
unit training, in a way that enables them to operate successfully in a 
complex environment across the full range of military operations. The 
long-term readiness impacts of the resulting deficit in trained forces 
will jeopardize the Army's ability to meet war plan requirements.

People
    The Soldiers of our all-volunteer force are the Army's greatest 
strategic asset. These professional men and women provide depth and 
versatility throughout the Total Force--the Active Army, the Army 
National Guard and the Army Reserve. As the Army gets smaller, it 
becomes even more important that we retain and recruit only the highest 
quality Soldiers. With the support of Congress, we will maintain a 
military pay and benefits package--to include affordable, high-quality 
healthcare--that acknowledges the burdens and sacrifice of service 
while understanding our future fiscal environment. During 2012, 96 
percent of the Army's recruits were high school graduates, exceeding 
the goal of 90 percent. The fiscal year 2012 active component 
recruiting effort produced the highest quality enlisted recruits in our 
history, based on test scores and waivers issued. We are also on track 
to sustain the high retention rate of the past 3 years. While the Army 
draws down, it is important that we do so at a pace that will allow us 
to continue to recruit and retain these high quality Soldiers. A 
precipitous drawdown, which may be necessary if sequestration and 
associated reductions in budgetary caps are fully implemented over the 
coming years, will have lasting impacts on the quality of the force.
    The Army is committed to ensuring that female Soldiers are provided 
career opportunities that enable them to reach their highest potential 
while enhancing overall Army readiness. Over the last year, the Army 
opened more than 13,000 positions to women. In January 2013, the 
Department of Defense rescinded the Direct Ground Combat Definition and 
Assignment Rule, thus enabling the elimination of unnecessary gender-
based restrictions for assignment. The Army is currently developing, 
reviewing and validating occupational standards, with the aim of fully 
integrating women into occupational fields to the maximum extent 
possible. We are proceeding in a deliberate, measured and responsible 
way that preserves unit readiness, cohesion and morale.
            Ready and Resilient
    Caring for the Army means doing our best to prepare Soldiers, 
Civilians and Families for the rigors of Army life. The Army remains 
committed to providing Soldiers and Families with a quality of life 
commensurate with their service. We continue to review our investments 
and eliminate redundant and poor performing programs. The Army will 
make every effort to protect essential Army Family Programs, but they 
will be unavoidably affected by workforce reductions, cuts to base 
sustainment funding and the elimination of contracts.
    The Army's Ready and Resilient Campaign enhances readiness for the 
Total Force by tailoring prevention and response measures to promote 
physical and mental fitness, emotional stability, personal growth and 
dignity and respect for all. An integral part of this campaign is the 
Comprehensive Soldier and Family Fitness Program, which strengthens 
Soldiers, Family members and Army Civilians by addressing physical, 
emotional, family, spiritual and social fitness collectively. Healthy 
Soldiers, Families and Civilians perform better, are more resilient and 
improve unit readiness.
    The challenges associated with suicide directly affect the force. 
It is a complex phenomenon that reflects broader societal problems and 
defies easy solutions. To better understand psychological health 
issues, the Army has partnered with a number of agencies to assess 
mental health risk and help commanders effectively address this 
persistent problem. In collaboration with the National Institute of 
Mental Health, the Army is examining risk and resilience factors among 
Soldiers in the largest behavioral health study of its kind ever 
undertaken. The study will develop data-driven methods to reduce or 
prevent suicide behaviors and improve Soldiers' overall mental health. 
The objective is to identify the most important risk and protective 
factors, and then act on them. Programs that improve Soldier and Family 
access to care, while reducing stigma, are essential to our efforts. 
The Embedded Behavioral Health program, which is being established for 
all operational units in the Active Army, is a leading example of how 
we are redesigning behavioral health services to improve the care that 
our Soldiers receive.
    The Army is committed to providing quality care for our wounded, 
ill and injured Soldiers and their Families. During 2012, six new 
warrior transition complexes were completed, which consist of barracks, 
administrative facilities and a Soldier and Family Assistance Center. 
Medical innovation and groundbreaking research in areas such as 
traumatic brain injury and post-traumatic stress disorder are helping 
us improve the care we provide our wounded Soldiers. Our command 
climate must foster an environment in which Soldiers can seek 
assistance without stigma.

Sexual Harassment/Assault Response and Prevention Program
    The Army continues to employ the Sexual Harassment/Assault Response 
and Prevention Program (SHARP) to eliminate sexual assault and 
harassment within our ranks. Active and engaged leadership is central 
to helping the Army community understand that a climate that respects 
and grants dignity to every member of the Army family increases our 
combat readiness. The Army will reinforce a culture in our basic 
training units, our officer training courses and our operational units 
in which sexual harassment, sexual assault and hazing are not 
tolerated, and if they occur are dealt with rapidly and justly. We are 
adding 829 full-time military and civilian sexual assault response 
coordinators and victim advocates at the brigade level as well as 73 
trainers, certifying those personnel, and executing more frequent 
command climate surveys in units. We have begun the hiring process for 
the 446 civilian positions.
    The Army has increased emphasis on investigations, prosecutions and 
laboratory resources needed to effectively build cases in order to 
ensure each alleged incident is adequately investigated, and if found 
credible, prosecuted to the full extent of the law. All unrestricted 
sexual assault allegations are referred to the Criminal Investigation 
Division, where we have added four highly qualified expert criminal 
investigators and six expert military attorneys and 20 specially 
trained agents who pursue their investigations independent of the 
command. We have also hired 30 additional Lab Examiners. Our 20 Special 
Victim Prosecutors educate and support the victim and provide advice 
and counsel to the criminal investigators as well as commanders. 
Sequestration and associated Civilian furloughs are likely to degrade 
aspects of our SHARP efforts, from slowing hiring actions, to delaying 
lab results which hinders our ability to provide resolution for 
victims.
            Develop Adaptive Leaders
    One of our greatest advantages is our officers and non-commissioned 
officers, and the Army's ability to provide strategic landpower depends 
on the quality of these leaders. While we can recruit and train 
Soldiers in relatively short order, the Army cannot build leaders in a 
similar timeframe. Army leaders must be innovative, possess a 
willingness to accept prudent risk in unfamiliar, highly complex and 
dangerous environments and display an ability to adjust based on 
continuous assessment. As we face an uncertain future with an uncertain 
level of resources, we must prudently commit to the one certain, high-
payoff investment--our leaders. Training, education and experience are 
the pillars of our leader development strategy, and we have many 
initiatives underway to ensure we cultivate, manage and optimize the 
talent of our leaders. We are instituting a program to match personal 
history and informal skills to duty assignments. We are implementing 
and improving our 360-degree assessment programs for officers and are 
making 360-degree assessments prerequisites to assume command at the 
lieutenant colonel and colonel levels. We are dramatically increasing 
the opportunity for and emphasis on broadening experiences and have 
increased the number of fellowships for our officers in government, 
industry and academia. Cuts to institutional and unit training, due to 
sequestration, OCO budget shortfalls in fiscal year 2013 and continuing 
fiscal uncertainty, will degrade our ability to develop leaders and 
will have long-term impacts on the readiness of the force.

Equipment Modernization and Reset
    As we prepare for the future, we will need to invest considerable 
time and resources to restore equipment used in combat operations to an 
acceptable level of readiness through reset operations, a combination 
of repair, replacement, recapitalization and transition. At the same 
time, other pressing modernization needs require attention and 
investment. The long-term nature of sequestration-related budget 
reductions puts each of the Army's investment priorities at risk. All 
acquisition priorities and many equipment modernization programs may 
face unanticipated schedule or cost impacts in the out years.
    The Army will require Overseas Contingency Operations funding for 
equipment reset for 3 years after the last piece of equipment has been 
retrograded from Afghanistan. This funding will support the substantial 
workload required for equipment retrograde, induction and repair, a 
process that can take up to 3 years for some items such as crash and 
battle damaged aircraft. Fiscal year 2013 budget reductions have 
already placed the Army at a disadvantage, forcing the cancellation of 
depot maintenance that will delay required repairs and upgrades.
            Organic and Commercial Industrial Base
    The Army will deliberately draw down force and production levels to 
fulfill the strategic guidance we have received. Aware that the future 
may bring unexpected crises, we must retain the ability to regenerate 
capabilities quickly in response to unforeseen emergencies. It is 
critical that we find the right balance between our organic and the 
commercial industrial bases. The ability to reduce the industrial base 
in times of peace but surge as required remains essential to equipping 
the Army, the Joint Force, and, in many cases, our allies and coalition 
partners. The current fiscal environment threatens the retention of 
critical skill sets in our depots, arsenals and ammunition plants. 
Fiscal uncertainty in fiscal year 13 led to delays in awarding many new 
contracts. Industry also began laying off workers and postponed hiring 
actions due to the slowdown in funding.
            Acquisition Reform
    The Army continues to reform the way it develops and acquires 
services and materiel through a capability portfolio review process. 
This approach exposes redundancies and ensures that funds are properly 
programmed in accordance with Combatant Commanders' requests, wartime 
lessons learned, progressive readiness and affordability. The Army 
develops capabilities through Army research and development processes, 
collaborating with other Services, industry, academia and international 
partners to identify and harvest technologies suitable for transition 
to the force.

Modernization Strategy
    The Army must maintain the technological edge over potential 
adversaries, enabling the force to prevail in all domains. The Army for 
the future requires capabilities that are versatile and tailorable, yet 
affordable and cost effective. The Army modernization effort goes 
beyond materiel and equipment solutions. It is a comprehensive strategy 
that includes doctrine, organizations, training, leadership, personnel 
and facilities. The heart of the strategy is the use of mature 
technologies and incremental upgrades of existing equipment, while 
balancing research investments between evolutionary and disruptive 
technologies. The modernization strategy is also supported by a risk-
based assessment to identify candidate capabilities for complete 
divestiture. Divestiture decisions will reduce total costs and preserve 
our ability to sustain the force.
            Soldier Systems
    The centerpiece of the Army Modernization Strategy is the Soldier 
and the squad. The Soldier portfolio focuses on equipment vital for 
squad success and empowers and enables squads with improved lethality, 
protection and situational awareness. It also includes resources to 
develop leaders and train Soldiers to take advantage of new or improved 
capabilities. Planned improvements for dismounted Soldiers include a 
mission command system that allows Soldiers to see each other's 
positions, mark hazards collaboratively and access on-the-move 
broadband voice, data and video capabilities. This unprecedented 
situational awareness, coupled with the continued fielding of advanced 
sensors and lightweight small arms systems, will ensure that our 
Soldiers and squads remain the best in the world.
            The Network and Investment in Cyber Capabilities
    The Network, also known as LandWarNet, is critical to empowering 
our Soldiers. Our senior leaders and Soldiers must have the right 
information at the right time to make the decisions essential to 
mission success. Consequently, the Army is building a single, secure, 
standards-based, versatile network that connects Soldiers and their 
equipment to vital information and our Joint, interagency, 
intergovernmental and multinational partners. It is critical that 
network modernization and sustainment efforts meet the ever-growing 
demand for tactical and business-related information and enterprise 
services in a timely manner and at an affordable cost.
    Ensuring freedom of maneuver in cyberspace and protecting our 
information and the Network is a continuing Army priority. The Army 
must strengthen its cyber security and network defense by building 
secure and resilient network environments, providing greater 
situational awareness, expanding programs for ensuring compliance with 
information assurance policies and best practices, and increasing 
training for all technical and non-technical personnel. To ensure the 
Army can defeat adversaries in both land and cyber domains, a full 
range of cyberspace capabilities must be available in support of the 
combatant commander, including well-trained cyber warriors, cyberspace 
operational freedom and assured mission command. This will require 
investment not only in technology, but also in people and process 
improvement.
            Ground Combat Vehicle and Joint Light Tactical Vehicle
    The Army's top two vehicle modernization programs are the Ground 
Combat Vehicle and Joint Light Tactical Vehicle. As a replacement for 
the Bradley Infantry Fighting Vehicle, the Ground Combat Vehicle will 
accommodate a full nine-man infantry squad in a vehicle that features 
increased underbelly and ballistic protection with scalable armor that 
provides maximum mission flexibility. The Ground Combat Vehicle will 
also provide sufficient space and power to host the Army's advanced 
network, increasing the effectiveness of the vehicle in any threat 
environment. The Army is developing the Joint Light Tactical Vehicle to 
fill capability gaps in the light wheeled vehicle fleet, carefully 
balancing payload, performance and protection. The Joint Light Tactical 
Vehicle combines an increased level of protection with improved 
mobility and transportability. It is also the Army's first network-
ready vehicle. Together, this integrated team of vehicles will be 
capable of dominating across the range of military operations and allow 
for incremental improvements.

                                CLOSING

    The American people have learned time and again that they can trust 
their Army to protect our national interests at home and abroad. Over 
the past 12 years of conflict, our Army has proven itself in arguably 
the most difficult environment we have ever faced. Our leaders at every 
level have displayed unparalleled ingenuity, flexibility and 
adaptability. Our Soldiers have displayed mental and physical toughness 
and courage under fire. They have transformed the Army into the most 
versatile, agile, rapidly deployable and sustainable strategic land 
force in the world.
    We live in an uncertain world, which often requires a military 
response to protect our national security interests. When that time 
comes, the Army must be ready to answer the Nation's call. We cannot 
take the readiness of the force for granted. Sequestration budget cuts, 
and continuing fiscal uncertainty, have placed us on the outer edge of 
acceptable risk for our future force. The Army must be capable of 
providing strategic landpower that can prevent conflict, shape the 
environment and win the Nation's wars. Preventing conflict demands 
presence, shaping the environment demands presence, restoring the peace 
demands presence, and more often than not, that presence proudly wears 
the uniform of an American Soldier.
                                 ______
                                 
                 2013 Army Reserve Component Submission

    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) 1994 require the information in this addendum. Section 517 
requires a report relating to implementation of the pilot Program for 
Active Component Support of the Reserves under section 414 of the NDAA 
1992 and 1993. Section 521 requires a detailed presentation concerning 
the Army National Guard (ARNG), including information relating to 
implementation of the ARNG Combat Readiness Reform Act of 1992 (title 
XI of Public Law 102-484, referred to in this addendum as ANGCRRA). 
Section 704 of the NDAA amended section 521 reporting. Included is the 
U.S. Army Reserve information using section 521 reporting criteria. 
Unless otherwise indicated, the data included in the report is 
information that was available 30 September 2012.

Section 517(b)(2)(A)
    The promotion rate for officers considered for promotion from 
within the promotion zone who are serving as active component advisors 
to units of the Selected Reserve of the Ready Reserve (in accordance 
with that program) compared with the promotion rate for other officers 
considered for promotion from within the promotion zone in the same pay 
grade and the same competitive category, shown for all officers of the 
Army.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            Fiscal year 2011                                         Fiscal year 2012
                                       -----------------------------------------------------------------------------------------------------------------
                                          Active component in                     Army average     Active component in                     Army average
                                           reserve  component    Percentage \1\  percentage \2\     reserve  component    Percentage \1\  percentage \2\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Major.................................  73 of 86...............           84.9            93.3   64 of 81...............             79            88.9
Lieutenant Colonel....................  6 of 11................           54.5            86.8   8 of 12................           66.7            82.7
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Active component officers serving in reserve component assignments at time of consideration.
\2\ Active component officers not serving in reserve component assignments at the time of consideration.

Section 517(b)(2)(B)
    The promotion rate for officers considered for promotion from below 
the promotion zone who are serving as active component advisors to 
units of the Selected Reserve of the Ready Reserve (in accordance with 
that program) compared in the same manner as specified in subparagraph 
(A) (the paragraph above).

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            Fiscal year 2011                                         Fiscal year 2012
                                       -----------------------------------------------------------------------------------------------------------------
                                          Active component in                     Army average     Active component in                     Army average
                                           reserve  component    Percentage \1\  percentage \2\     reserve  component    Percentage \1\  percentage \2\
--------------------------------------------------------------------------------------------------------------------------------------------------------
Major.................................  3 of 57................            5.3             8.7   1 of 57................            1.8               8
Lieutenant Colonel....................  0 of 10................  ..............            3.5   1 of 10................             10               8
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Below-the-zone active component officers serving in reserve component assignments at time of consideration.
\2\ Below-the-zone active component officers not serving in reserve component assignments at time of consideration.

Section 521(b)
    1. The number and percentage of officers with at least 2 years of 
active-duty before becoming a member of the Army National Guard or the 
U.S. Army Reserve Selected Reserve units.
      ARNG officers.--13,653 or 30.7 percent of which 422 were fiscal 
        year 2012 accessions.
      Army Reserve officers.--10,026 or 32 percent of which 698 were 
        fiscal year 2012 accessions.
    2. The number and percentage of enlisted personnel with at least 2 
years of active-duty before becoming a member of the Army National 
Guard or the U.S. Army Reserve Selected Reserve units.
      ARNG enlisted.--63,567 or 20 percent of which 1,644 were fiscal 
        year 2012 accessions.
      Army Reserve enlisted.--36,175 or 24 percent of which 6,068 were 
        fiscal year 2012 accessions.
    3. The number of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active-duty service obligation and, of those officers:
    a. The number who are serving the remaining period of their active-
duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
      In fiscal year 2012, there were five Service Academy graduates 
        released from active duty before completing their obligation to 
        serve in the Army Reserve.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
      In fiscal year 2012, the Secretary of the Army granted no waivers 
        under section 1112(a)(2) of ANGCRRA to the Army Reserve.
      In fiscal year 2012, under section 1112(a)(2) of ANGCRRA the 
        Secretary of the Army granted five waivers to the Army Reserve. 
        The waiver provided one Soldier an opportunity to play a 
        professional sport and complete service obligation. Waivers 
        allowed four Soldiers to enter the Health Professionals 
        Scholarship Program. All five Soldiers were appointed Reserve 
        component officers.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps graduates and were released from 
active duty before the completion of their active-duty service 
obligation and, of those officers:
    a. The number who are serving the remaining period of their active-
duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
      In fiscal year 2012, there were no distinguished Reserve Officers 
        Training Corps (ROTC) graduates serving the remaining period of 
        their active-duty service obligation as a member of the 
        Selected Reserve.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
      In fiscal year 2012, the Secretary of the Army granted no 
        waivers.
    5. The number of officers who are graduates of the Reserve 
Officers' Training Corps program and who are performing their minimum 
period of obligated service in accordance with section 1112(b) of 
ANGCRRA by a combination of (a) 2 years of active duty, and (b) such 
additional period of service as is necessary to complete the remainder 
of such obligation served in the National Guard and, of those officers, 
the number for whom permission to perform their minimum period of 
obligated service in accordance with that section was granted during 
the preceding fiscal year:
      In fiscal year 2012, there were no graduates released early from 
        an active-duty obligation.
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
First Lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an active-duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported).
      In fiscal year 2012, the ARNG recommended 2,183 commissioned 
        officers for a position-vacancy promotion and the Senior Army 
        Advisor, an active-duty officer, concurred with all those 
        promotion actions. The ARNG also recommended 1,234 warrant 
        officers for a position-vacancy promotion, and the Senior Army 
        Advisor likewise concurred with all those promotion actions. 
        Prior to fiscal year 2012, warrant officers were not required 
        to go before Federal Recognition Boards for promotion. 
        Therefore, the numbers of warrant officers have not previously 
        been included in the response to this question.
      In fiscal year 2012, the Army Reserve recommended 62 officers for 
        a position-vacancy promotion and promoted 35.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for non-commissioned 
officers and the reason for each such waiver.
      In fiscal year 2012, the ARNG had a total of 14 Soldiers that 
        received a military education waiver. The waivers were granted 
        based on non-completion of the Warrior Leader Course (WLC) due 
        to assignment to a Warrior Transition Unit (WTU) (``medical 
        hold'' or ``medical hold-over'' units); and non-completion of 
        the Advanced Leader Course or Senior Leader Course due to 
        deployment or training schedule constraints.
      In fiscal year 2012, the Army Reserve had a total of 7 Soldiers 
        eligible for promotion if recommended that received Warrior 
        Leadership Course (WLC) military education waivers as a result 
        of being deployed or assigned to a Warrior Transition Unit 
        (WTU) (i.e. medical hold). The USAR saw a reduction in waivers 
        due to the Department of the Army (DA), Army Leader Development 
        Strategy that went into effect 1 October 2011. This policy 
        discontinued waivers for the Advanced Leader Course (ALC) and 
        Senior Leader Course (SLC).
      The Secretary of the Army has delegated the authority for the 
        waivers referred to in section 114(a) of ANGCRRA to the 
        Director, ARNG and to the Commander, U.S. Army Reserve Command. 
        The National Guard Bureau and the U.S. Army Reserve Command 
        maintain details for each waiver.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and non-deployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. (Included is a narrative summary of information pertaining 
to the Army Reserve.)
      In fiscal year 2012, the ARNG had 83,728 Soldiers considered non-
        deployable for reasons outlined in Army Regulation 220-1, Unit 
        Status Reporting (e.g., initial entry training; medical issues; 
        medical non-availability; pending administrative or legal 
        discharge; separation; officer transition; non-participation or 
        restrictions on the use or possession of weapons and ammunition 
        under the Lautenberg Amendment). The National Guard Bureau 
        (NGB) maintains the detailed information.
      In fiscal year 2012, the Army Reserve had 55,639 Soldiers 
        considered non-deployable for reasons outlined in Army 
        Regulation 220-1, Unit Status Reporting. The population of 
        ``non-available'' reflects 28 percent of the total USAR end 
        strength: 14 percent do not meet medical readiness standards 
        (e.g., profile, pending medical review boards, adjudication) 
        and 14 percent do not meet administrative requirements (e.g., 
        initial entry training; pending administrative or legal 
        discharge; separation; officer transition; non-participation; 
        family-care plan, or Lautenberg Amendment restriction). The 
        U.S. Army Reserve Command (USARC) maintains detailed 
        information.
    9. The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard. (Army Reserve data also reported.)
      A total of 65 ARNG Soldiers, with at least 24 months time in 
        ARNG, were losses in fiscal year 2012 due to lack of minimum 
        required military education. The breakdown is 19 enlisted and 
        46 officers.
      In fiscal year 2012, the USAR discharged 32 officers and 7 
        enlisted Soldiers for not completing the required initial entry 
        training required for deployment within 24 months.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary of the Army during the previous fiscal year under 
section 1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) 
of ANGCRRA described in paragraph (9), together with the reason for 
each waiver.
      In fiscal year 2012, there were no waivers granted Secretary of 
        the Army to the Army National Guard under section 1115(c)(2) of 
        ANGCRRA of the requirement in section 1115(c)(1) of NGCRRA 
        described in paragraph (9).
      In fiscal year 2012, The Chief, Army Reserve, granted 210 
        waivers. The Army Reserve was delegated the authority to grant 
        waivers for personnel who did not complete the minimum training 
        required for deployment within 24 months after entering the 
        Army Reserve. The reasons for waivers were categorized as 
        Hardship, Medical or Administrative (i.e. Failed Height/Weight 
        Standards, Failed to obtain Driver License, Accepted ROTC 
        Scholarship, Temporary Disqualified, and Failed to Complete 
        High School).
    11. The number of Army National Guard members, shown for each 
State, (and the number of AR members), who were screened during the 
preceding fiscal year to determine whether they meet minimum physical 
profile standards required for deployment and, of those members: (a) 
the number and percentage that did not meet minimum physical profile 
standards for deployment; and (b) the number and percentage who were 
transferred pursuant to section 1116 of ANGCRRA to the personnel 
accounting category described in paragraph (8).
    a. The number and percentage who did not meet minimum physical 
profile standards required for deployment:
      In fiscal year 2012, 297,515 ARNG Soldiers underwent a Periodic 
        Health Assessment (PHA). There were 14,233 (4.8 percent of the 
        Soldiers who underwent PHA) personnel identified for review due 
        to a profile-limiting condition or failure to meet retention 
        standards.
      In fiscal year 2012, 160,864 USAR Soldiers underwent a Periodic 
        Health Assessment (PHA). These PHAs identified 10,879 (6.7 
        percent) soldiers for further review due to condition-limiting 
        profiles (temporary or permanent) or failure to meet retention 
        standards. The USAR expects temporary disqualifications to 
        return to duty/deployable status upon resolution of the 
        limiting condition.
    b. The number and percentage that transferred pursuant to section 
1116 of ANGCRRA to the personnel accounting category described in 
paragraph (8).
      In fiscal year 2012, the ARNG transferred all 14,233 Soldiers to 
        a medically non-deployable status who were identified for a 
        review due to a profile limiting condition or failure to meet 
        retention standards.
      In fiscal year 2012, the Army Reserve identified a total of 7,696 
        Soldiers through PHAs or other field generated source (medical 
        commands) as having a permanent non-deployable medical 
        condition. These Soldiers are being vetted through a medical 
        evaluation board or a non-duty related physical evaluation 
        board for final determination.
    12. The number of members and the percentage total membership of 
the Army National Guard shown for each State who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1117 of ANGCRRA.
    13. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State who 
underwent a dental screening during the previous fiscal year as 
provided in section 1117 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1117 of ANGCRRA.
    14. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State, over the 
age of 40 who underwent a full physical examination during the previous 
fiscal year for purposes of section 1117 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1117 of ANGCRRA.
    15. The number of units of the Army National Guard that are 
scheduled for early deployment in the event of a mobilization, and of 
those units, the number that are dentally ready for deployment in 
accordance with section 1118 of ANGCRRA.
      Public Law 104-106 (NDAA 1996), Div A, title VII, section 704(b), 
        February 10, 1996, repealed section 1118 of ANGCRRA.
    16. The estimated post-mobilization training time for each Army 
National Guard combat unit (and Army Reserve unit), and a description, 
displayed in broad categories and by State of what training would need 
to be accomplished for Army National Guard combat units (and AR units) 
in a post-mobilization period for purposes of section 1119 of ANGCRRA.
      USAR Training Strategy IAW the Army Training Strategy executes 
        the progressive training ARFORGEN model (Reset, Train/Ready 1, 
        Train/Ready 2, Train/Ready 3, Available) over a 5-year cycle. 
        The training proficiency achieved at the end of year 3 (Train/
        Ready) is contingent on Allocated or Apportioned designation.
      Effective 1 January 2012, the Secretary of the Army implemented 
        9-months ``Boots on the Ground'' (BOG) for the Army. Under this 
        policy USAR units are mobilized for 12 months with 9 months BOG 
        and up to 90 days of post-mobilization training. This allowed 
        the USAR to reduce the training demand on their allocated units 
        while in a pre-mobilization status. For allocated units, the 
        bulk of individual skills training are a pre-mobilization 
        requirement consisting of 24 days of Inactive Duty Training 
        (IDT). Collective training is conducted during 15 days of 
        Annual Training (AT). USAR units will mobilize at no less than 
        a T3 rating and deploy at T2. First Army assumed the training 
        for Theater Specific Required Training (TSRT) on 1 October, 
        2012.
      The USAR generates apportioned units to execute contingency 
        missions, Operational Plans (OPLANS), or other Army 
        requirements during the available year of the ARFORGEN cycle. 
        The USAR is required to provide 26,284 soldiers to the 
        Available Force Pool annually. During a surge requirement the 
        USAR must be able to provide 19,780 (75 percent) of its total 
        requirement within the first 45 days and 25,881 (98 percent) 
        within 60 days. The demand for apportioned units within the 
        first 60 days precludes pre-deployment training to achieve 
        deployment readiness after mobilization. The graphic below 
        demonstrates precisely why the Army Reserve must maintain T2 
        levels of readiness for USAR apportioned formations. The USAR 
        training strategy produces T2 units at the start of the 
        Available Year.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

      The number of pre-mobilization training days required to train 
        Contingency Expeditionary Force (CEF) units is based on the 
        complexity of the training to achieve T2. The USAR established 
        three levels of training complexity based on the resources 
        required to achieve readiness objectives.
        --Level 1.--Most difficult to train based on Decisive Action 
            mission essential tasks, unit complexity, 6 additional 
            training days--T/R 2&3. Ex: Signal Command, Theater 
            Military Police Command, Combat Support Brigade.
        --Level 2.--Moderately difficult to train based on Decisive 
            Action mission essential tasks, unit complexity, 6 
            additional training days--T/R3. Ex: Transportation 
            Battalion, Military Police Battalion.
        --Level 3.--Least difficult to train based on Decisive Action 
            mission essential tasks and unit complexity; no additional 
            days required. Ex: Airfield Operations Detachments, Medical 
            and Dental Companies.
      The Army Reserve has internal training support assets to meet 
        collective training and mission command training requirements. 
        The 84th Training Command (Unit Readiness) is the Army 
        Reserve's Executive Agent for planning, coordinating, and 
        conducting Warrior Exercises (WAREX) and Combat Support 
        Training Exercises (CSTX) rotations. The command's training 
        support brigades and battalions provide Observer, Controller/
        Trainer coverage for WAREXs and CSTXs. The 75th Training 
        Division (Mission Command) advises assists, and trains 
        battalion and higher staffs in Mission Command. They provide 
        exercise leadership and certified Observer, Controller/
        Trainers. They focus on developing the exercise architecture by 
        replicating operational environments that facilitate Mission 
        Command training; integrate Live/Virtual/Constructive-Gaming 
        (LVC-G) design and simulations capabilities into seamless 
        exercises that facilitate achievement of training objectives. 
        Training is supported by First Army.
      Timely alert for mobilizations--at least 1 year prior--is crucial 
        to the Army National Guard's mission success. Under the Army 
        Force Generation (ARFORGEN) model, many training tasks 
        previously conducted during the post-mobilization phase now 
        occurs in local training areas before mobilization. First Army, 
        in CONUS, manages and directs post-mobilization training for 
        Reserve Component conventional forces. First Army, in theater, 
        conducts the theater-specified training required and confirms 
        the readiness of mobilized units waiting to deploy.
      Army National Guard training and Army Reserve training complies 
        with the ARFORGEN model of progressive training over multiyear 
        cycles and reflects the Army Training Strategy. Units move 
        through the ARFORGEN cycle in three force pools (reset, train/
        ready, and available). Training progresses through these force 
        pools with the initial focus on individual and leader training, 
        migrating to low-level unit and battle staff, and finally 
        culminating in multi-echelon, combined-arms exercises in the 
        Ready year.
      All ARNG units are ``Combat Units.'' Forces Command Pre-
        Deployment Training, in support of Combatant Commands' 
        guidance, identifies four categories of deploying units:
        --Category (CAT) 1 includes units that would rarely, if ever, 
            travel off a Contingency Operating Base/Forward Operating 
            Base (COB/FOB).
        --CAT 2 includes units that will, or potentially will, travel 
            off a COB/FOB for short durations.
        --CAT 3 includes units that travel and conduct the majority of 
            their missions off a COB/FOB.
        --CAT 4 consists of maneuver units with an Area of Operations 
            (such as Brigade Combat Teams).
      The pre-mobilization tasks increase by category, up to CAT 4. A 
        unit's post-mobilization training time depends on the number of 
        the pre-mobilization tasks completed during pre-mobilization. 
        Army goals for post-mobilization training for Reserve Component 
        headquarters and combat support/combat service support units 
        range from 15 to 45 days, depending on the type and category of 
        the unit (note: this time does not include administrative and 
        travel days). Any pre-mobilization tasks not completed during 
        the pre-mobilization phase must be completed at a mobilization 
        station. The ARNG typically sends units to a mobilization 
        station with a pre-mobilization task completion rate of 90-95 
        percent. Smaller ARNG units typically arrive at mobilization 
        station 100 percent complete.
      Post-mobilization training conducted by First Army typically 
        consists of:
        --theater orientation;
        --rules of engagement and escalation-of-force training;
        --counterinsurgency operations;
        --counter-improvised-explosive-device training;
        --convoy live-fire exercises;
        --completion of any theater-specified training not completed 
            during the pre-mobilization period.
      Post-mobilization training days for a CAT 4 unit range from 50-65 
        training at mobilization station. This training supports a 
        Combat Training Center culminating training event during post-
        mobilization CAT 4 unit is required to perform in order to be 
        validated and deployed (National Training Center or Joint 
        Readiness Training Center; 30 day training exercises).
      Below is an outline depicting post-mobilization training day 
        goals for various units:
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
      The following outline depicts the actual number of post-
        mobilization training days for various units:*

------------------------------------------------------------------------
                                       Postmobilization training days
                                  --------------------------------------
                                     Current        Goal        Delta
------------------------------------------------------------------------
I/H/S Brigade Combat Team........           63           45           18
Combat Aviation Brigade..........           33           60          -27
Military Police (Internment/                27           40           -3
 Resettlement)...................
Engineer Battalion (Route                   37           40           -3
 Clearance)......................
Military Police Company..........           30           40          -10
Quartermaster Company............           23           15            8
Engineer Company (Construction)..           29           40          -11
Transportation Company (Heavy               37           40           -3
 Equip Trans)....................
------------------------------------------------------------------------
* From First Army-approved Post-Mobilization Training Plans.

    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the Army Reserve).
      During fiscal year 2012, the ARNG continued to synchronize the 
        use of existing and ongoing live, virtual, and constructive 
        training aids, devices, simulations and simulators (TADSS) 
        programs. During Army Training Summit III the ARNG-TRS/TRC 
        branches participated in working groups with Department of the 
        Army Management Office Training Support (DAMO-TRS), Training 
        and Doctrine Command (TRADOC) and the Army Training Support 
        Command (ATSC-STIDD) and other Major Commands to develop an 
        ARFORGEN resourced training model. By synchronizing the use of 
        TADSS with current Event Matrix Menu and ARFORGEN cycles for 
        all components.
      To support the training requirements of M1A1 Abrams and M2A2 
        Bradley equipped Brigade Combat Teams (BCTs) the ARNG is 
        continuing to field and train using the Conduct of Fire 
        Trainer--Situation Awareness (COFT-SA) and the Mobile-Conduct 
        of Fire Trainer Situation Awareness (M-COFT-SA). Due to the 
        geographical dispersion of units, the ARNG has a larger 
        requirement for simulations that are Armory based. This brought 
        the ARNG to develop and purchase the M-COFT-SA trainer as a 
        mobile solution to fulfill training gaps. The ARNG continued 
        fielding Tabletop Full-fidelity Trainers and is fielding the 
        Bradley Advanced Training System (BATS) for the M2A2/A3 units. 
        When fully fielded, these devices, in addition to the Conduct 
        of Fire Trainer Advanced Gunnery Trainer System (CAGTS), Mobile 
        Advanced Gunnery Trainer System (M-AGTS) will be the primary 
        simulation trainers to meet the virtual gunnery requirements of 
        M1A1 and M2A2/A3 crews.
      The ARNG-TRS continues to participate in the Analysis of 
        Alternatives (AoA) to address the emerging requirement from the 
        Training General Officer Steering Committee (TGOSC) to address 
        the non-stabilized platform gunnery requirements. The ARNG has 
        developed two solutions and updated those devices to meet the 
        non-stabilized Gunnery requirements. The ARNG has fielded the 
        Virtual Convoy Operations Trainer (VCOT) to train crew drills, 
        convoy operations, command and control and non-stabilized 
        platform gunnery. In addition, the ARNG has added an Individual 
        Gunnery Trainer (IGT) to train individual gunners for .50 
        caliber, MK19, and M240 machine gun non-stabilized gunnery 
        tasks listed in the forthcoming HBCT gunnery manual. Currently, 
        all 54 States and Territories have received the VCOT 
        capability. The IGT is an initiative that is currently being 
        fielded; to date 147 IGT systems have been fielded to ARNG 
        units with 80 more of the Brigade Combat Team solution.
      The ARNG has bought down its requirement for 11 of the Non-Rated 
        Crew Member Trainer for aviation crews using National Guard and 
        Reserve Equipment Appropriation (NGREA) funding. This is an 
        Army Program of Record (PoR) trainer that simulates training 
        the aviation crew skills prior to live events.
      The ARNG is currently fielding the Operation Driver Simulator 
        that trains transportation tasks in a family of vehicles, at 
        both the unit and institutional levels. This is a recognized 
        ``In Lieu Of'' training device.
      The ARNG is continuing to field the Engagement Skills Trainer 
        (EST 2000) to meet basic and advanced rifle marksmanship 
        requirements. In fiscal year 2012 they have bought down their 
        requirements using NGREA funding. This system is a PoR 
        marksmanship training device. The ARNG is also continuing the 
        use of its previously procured Fire Arms Training System (FATS) 
        and phasing out systems that have concurrency issues. The EST 
        2000 and FATS also provides static unit collective gunnery and 
        tactical training, and shoot/don't shoot training. The ARMY is 
        currently re-competing this contract and the ARNG has a 
        representative that is on the source selection committee to 
        address the ARNG dispersion challenges and additional training 
        requirements.
      The ARNG supplements its marksmanship-training strategy with the 
        Laser Marksmanship Training System (LMTS). The use of LMTS 
        helps to develop and maintain basic marksmanship skills, 
        diagnose and correct problems, and assessing basic and advanced 
        skills. The ARNG has over 900 systems fielded down to the 
        company level. The LMTS is a laser-based training device that 
        replicates the firing of the Soldier's weapon without live 
        ammunition.
      The Improvised Explosive Device Effects Simulator (IEDES) 
        supports the training requirements for the detection, reaction, 
        classification, prevention, and reporting of Improvised 
        Explosive Devices. The IEDES kits consist of pyrotechnic and/or 
        non-pyrotechnic training devices to achieve scalable signature 
        effects. The ARNG has fielded 258 total IEDES kits, of which, 
        194 are non-pyrotechnic kits (A-kits) and 64 are pyrotechnic 
        kits (B-kits). This distribution includes 53 ARNG training 
        sites across 39 States and territories. They have received 
        fielding, New Equipment Training (NET) and life cycle 
        sustainment as of 3rd Quarter fiscal year 2012. ARNG-TRS is 
        continuing the effort to identify and fill requirements based 
        on the recently completed Army Training Summit III. The latest 
        IEDES innovation is the fielding of the IEDES Transit Cases to 
        support less than company size training scenarios that has 
        started in 3d Quarter fiscal year 2012. The ARNG has 
        restructured the Training Support section of the G-3 to address 
        this issue and assigned an officer to manage the program of 
        asymmetric warfare.
      The ARNG continues to develop its battle command training 
        capability through the Mission Command Training Support Program 
        (MCTSP). This program provides live, virtual, constructive, and 
        gaming (LVC&G) training support at unit home stations via 
        mobile training teams. Units can also train at Mission Training 
        Complexes (MTC). The MCTSP consists of three MTCs at Camp 
        Dodge, IA; Fort Indiantown Gap, PA; and Fort Leavenworth, KS, 
        with two additional sites for the future at Camp Gowen field/
        Orchard Range and Fort Chaffee. The Army Campaign Plan 2011 
        requires the ARNG to train 172 units (Brigade equivalents and 
        above). The MCTSP synchronizes ARNG mission command training 
        capabilities to help units plan, prepare, and execute battle 
        staff training. The objective is to develop proficient battle 
        command staffs and trained operators during pre-mobilization 
        training.
      In order to provide the critical Culminating Training Event for 
        the U.S. Army Forces Command (FORSCOM) ARFORGEN cycle, the ARNG 
        has implemented the Exportable Combat Training Capability 
        (XCTC) Program. The ARNG XCTC program provides Battalion Battle 
        Staff training to the level organized, coupled with a theater 
        immersed, mission focused training event to certify company 
        level proficiency prior to entering the ARFORGEN Available 
        Force Pool defined as certified company proficiency with 
        demonstrated battalion battle staff proficiency, competent 
        leaders, and trained Soldiers prepared for success on the 
        battlefield.
      The ARNG is also looking to procure their requirement of the 
        Dismounted Soldier Training Suite to compliment the Close 
        Combat Tactical Trainer.
      The ARNG way-ahead is continuing to use PoR and seven recognized 
        ``In Lieu of'' devices to train and sustain vital and 
        perishable skill sets and interact with all components to 
        support the live, virtual, constructive and gaming training 
        strategy. The ARNG-TRS is drafting a white paper that will 
        address a well-informed TADSS strategy that is ARFORGEN or 
        Future Forces Generation (FUFORGEN) driven. TADSS are a key 
        function of the ARNG training at home station and are heavily 
        relied upon by commanders at all levels. In times of fiscal 
        uncertainty the use of simulations becomes greater and critical 
        to the readiness of the ARNG.
      The USAR executes a training strategy committed to producing 
        trained units and battle staffs for 21st Century operations 
        that are prepared for operational deployment in support of 
        Combatant Commanders and other Army requirements. This requires 
        realistic and comprehensive home station training supported by 
        sufficient number of training man-days, and an appropriate mix 
        of Live, Virtual, Constructive, and Gaming platforms.
      The USAR focused on maximizing simulation technology and home 
        station training opportunities in support of commander's Force 
        Generation training readiness objectives. Home station training 
        capabilities must provide a training framework (operational, 
        institutional, and self development) that approximates the 
        conditions of the operational environment while mitigating 
        resource constraints of land, manpower, facilities, and 
        training dollars. The Army Reserve requires blended, 
        integrated, and distributive training capabilities (software, 
        equipment, network capacity, and facilities) to train and 
        educate more efficiently and effectively in support of 
        ARFORGEN, the Army's Training Concept, the Army Learning 
        Concept, and the Army Leader Development Strategy.
      The USAR is currently conducting a pilot program which adds 10 
        laptops to 10 different USARC locations. These computers are 
        being fielded for Distance Learning (DL) to support commanders 
        in the field and allow Soldiers to meet mandatory DA Electronic 
        Based Distributed Learning (EBDL), Distance Learning (DL), and 
        other training requirements.
      The Warrior and Combat Support Training Exercises are the Army 
        Reserve's major collective training exercises conducted on Army 
        Reserve installations. These exercises integrate live and 
        constructive environments to train senior battle staffs and to 
        conduct company and platoon level lanes training. The Army 
        Reserve has made sizable investments in improving facilities 
        and infrastructure in order to leverage technologies to enhance 
        training, reduce costs, and facilitate collaboration. The TADSS 
        and Virtual Battle Space 2 (VGS2) systems have increased the 
        readiness of units trained on them. Additionally, the 75th 
        Mission Command Training Division has integrated a high-tech 
        joint constructive battle staff training simulation to provide 
        more realistic training to rotating soldiers. The next step for 
        the USAR is to link Virtual, Constructive, and Live 
        environments.
      The USAR has fifty (50) Digital Training Facilities (DTFs), 
        located in twenty-eight (28) States. Daily, our Soldiers 
        conduct DL training on any of the 562 course, Structured Self 
        Development, and individual or squad and platoon level 
        collective training within these facilities. The Army Reserve 
        is currently focused on using the VBS2 and distributed 
        capability within these facilities as Spokes to the Reserve's 
        five (5) Mission Command Training Centers (MCTCs) to conduct 
        worldwide virtual and or constructive training.
      The USAR has identified the Deployed Digital Training Campus 
        (DDTC) as an effective portable capability to provide Gaming 
        and Structured Self Development training to its units. In 
        fiscal year 2012, the Army Reserve conducted an analysis to 
        identify training gaps within the Pacific areas of American 
        Samoa, Saipan and Guam. The Army Reserves will conduct a Proof 
        of Principle (PoP) using the DDTC in American Samoa to enhance 
        and improve the Soldiers' proficiency in Structured Self 
        Development and individual, squad and platoon level 
        proficiency. Additionally, VBS2 will be incorporated in Samoa, 
        Guam and Saipan to supplement the current training and enhance 
        training proficiency.
    18. Summary tables of unit readiness, shown for each State, (and 
for the Army Reserve), and drawn from the unit readiness rating system 
as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
    a. Explanations of the information:
      Readiness tables are classified and can be provided upon request. 
        The Department of the Army, G-3, maintains this information. 
        The States do not capture this data. The information is 
        maintained in the Defense Readiness Reporting System--Army.
    b. Based on the information shown in the tables, the Secretary's 
overall assessment of the deployability of units of the ARNG (and Army 
Reserve), including a discussion of personnel deficiencies and 
equipment shortfalls in accordance with section 1121:
      Summary tables and overall assessments are classified and can be 
        provided upon request. The Department of the Army, G-3, 
        maintains this information. The information is maintained in 
        the Defense Readiness Reporting System--Army.
    19. Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of the Army National Guard (and Army 
Reserve) by inspectors general or other commissioned officers of the 
Regular Army under the provisions of section 105 of title 32, together 
with explanations of the information shown in the tables, and including 
display of:
    a. The number of such inspections;
    b. Identification of the entity conducting each inspection;
    c. The number of units inspected; and
    d. The overall results of such inspections, including the 
inspector's determination for each inspected unit of whether the unit 
met deployability standards and, for those units not meeting 
deployability standards, the reasons for such failure and the status of 
corrective actions.
      During fiscal year 2012, Inspectors General and other 
        commissioned officers of the Regular Army conducted 1,887 
        inspections of the Army National Guard. Regular Army Officers 
        assigned to the respective States and Territories as Inspectors 
        General executed the bulk of these inspections (1,833). Of the 
        remaining, First Army and the Department of the Army Inspector 
        General conducted 26 inspections, and U.S. Army Forces Command 
        (FORSCOM), the Communications-Electronics Command (CECOM), and 
        various external inspection agencies conducted 28. Because the 
        inspections conducted by Inspectors General focused on findings 
        and recommendations, the units involved in these inspections 
        were not provided with a pass/fail rating. Results of these 
        inspections may be requested for release through the Inspector 
        General of the Army.
      The Army Reserve Office of the Inspector General conducted two 
        special assessments within the last 12 months. The first 
        assessment was entitled ``Personnel Transition within the Army 
        Reserve'' and was directed by the Chief, Army Reserve on 11 
        August 2011. This assessment (Personnel Transition within the 
        Army Reserve) was conducted 17 October 2011 through 26 January 
        2012. A total of 38 units were assessed as part of this 
        assessment. The final report was approved in April 2012. The 
        second assessment entitled ``Special Assessment of the 
        Organizational Inspection Program (OIP) within the U.S. Army 
        Reserve'' was also directed by the Chief, Army Reserve on 22 
        August 2012. This assessment began in October 2012 and is 
        concurrently ongoing; the expected completion date is February 
        2013. To date, a total 30 of the 50 units selected for this 
        assessment have been assessed by members of the Army Reserve 
        Office of the Inspector General. The Army Reserve Office of the 
        Inspector General has also conducted 7 Intelligence Oversight 
        (IO) inspections within the past 12 months. The overall goal of 
        both assessments as well as the IO inspections was not to 
        evaluate a unit's deployability status. However, out of the 
        total 74 units assessed/inspected, nothing was found that would 
        cause a unit to be listed as non-deployable. Results of these 
        inspections may be requested for release through The Inspector 
        General of the Army.
    20. A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the active-duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by State, for each such ARNG unit (and for 
the U.S. Army Reserve) by: (A) the assessment of the commander of that 
associated active-duty unit of the manpower, equipment, and training 
resource requirements of that National Guard (and Army Reserve) unit in 
accordance with section 1131(b)(3) of the ANGCRRA; and (B) the results 
of the validation by the commander of that associated active-duty unit 
of the compatibility of that National Guard (or U.S. Army Reserve) unit 
with active-duty forces in accordance with section 1131(b)(4) of 
ANGCRRA.
      The Army continues to meet congressional intent as it pertains to 
        active component (AC) support to reserve component (RC) 
        readiness outlined in title XI of the National Defense 
        Authorization Act of 1993, as amended. Every RC unit that 
        deployed during fiscal year 2012 was properly manned, equipped, 
        trained, and certified to meet Combatant Commander (CCDR) 
        requirements prior to employment overseas and in the 
        continental United States (CONUS) by processes associated with 
        Army Force Generation (ARFORGEN).
      The legislated roles and responsibilities formerly given to the 
        commanders of multiple associated AC division and above units 
        continue to be executed by the commanders of First Army 
        (FORSCOM's executive agent for Active Army support for the 
        training, readiness, and mobilization of conventional RC units 
        in the continental United States); the 196th Infantry Brigade 
        (U.S. Army Pacific's executive agent for the training and 
        readiness of conventional RC units located in the Pacific 
        Command's area of responsibility); and the U.S. Army Europe 
        (USAREUR) (for the training and readiness of conventional RC 
        units located in the European Command's area of 
        responsibility).
      ARFORGEN continues to be the Army's core process to synchronize 
        the progression of unit readiness over time to produce trained, 
        ready, and cohesive units prepared for operational deployment 
        in support of CCDR and other Army requirements. Within 
        ARFORGEN, all active Army, Army National Guard, and Army 
        Reserve units cycle through the ARFORGEN force pools and are 
        designated either for deployment to a validated CCDR 
        operational requirement or for the execution of a contingency 
        mission, operational plan, or other validated Army requirement.
      Assessments of the manpower, equipment, and training resource 
        requirements of these RC units and validation of their 
        compatibility with AC forces (as required by sections 
        1131(b)(3) and 1131(b)(4) of the Army National Guard Combat 
        Readiness Reform Act of 1992) are executed and maintained by 
        First Army, the 196th Infantry Brigade, and USAREUR as the RC 
        units progress through the ARFORGEN process into the deployment 
        window.
      On September 4, 2012, the Secretary of the Army signed Army 
        Directive 2012-08 (Army Total Force Policy). This policy 
        establishes a framework for the integration of the Army's 
        Active and Reserve Components as a ``Total Force'' and includes 
        general guidance on the integration of AC and RC forces for 
        training, readiness, and employment. Implementation guidance is 
        expected to be published in fiscal year 2013.
    21. A specification of the active-duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for fiscal years 1992 and 1993 (10 U.S.C. 261 
note), shown (a) by State for the Army National Guard (and for the U.S. 
Army Reserve), (b) by rank of officers, warrant officers, and enlisted 
members assigned, and (c) by unit or other organizational entity of 
assignment.

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                  Title XI (fiscal year 2012) authorizations     Title XI (fiscal year 2012) assigned
                                                                 ---------------------------------------------------------------------------------------
                                                                                         Warrant                                     Warrant
                                                                   Officers   Enlisted   officers    Total     Officers   Enlisted   officers    Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
U.S. Army Reserve...............................................         41         18  .........         59         43         30  .........         71
TRADOC..........................................................         51         12  .........         63         26         13  .........         39
FORSCOM.........................................................      1,033      2,165        101      3,299        869      2,108         87      3,064
USARPAC.........................................................         30         49          1         80         25         46          1         72
                                                                 ---------------------------------------------------------------------------------------
      Total.....................................................      1,155      2,244        102      3,501        963      2,190         88      3,241
--------------------------------------------------------------------------------------------------------------------------------------------------------

      As of February 5, 2013, the Army had 3,241 active component 
        Soldiers assigned to title XI positions. In fiscal year 2006, 
        the Army began reducing authorizations in accordance with the 
        National Defense Authorization Act 2005 (Public Laws 108-767, 
        section 515). Army G-1 and U.S. Army Human Resources Command 
        carefully manages the authorizations and fill of title XI 
        positions. The data is not managed or captured by State--the 
        chart above provides the best representation of how title XI 
        positions are dispersed and utilized.

    Senator Durbin. Thank you, Mr. Secretary.
    General Odierno.

STATEMENT OF GENERAL RAYMOND T. ODIERNO, CHIEF OF STAFF

    General Odierno. Chairman Durbin, Ranking Member Cochran, 
Ranking Member Shelby from the full committee, other 
distinguished members, thank you for allowing us to be here. I 
am not going to repeat all of what the Secretary said. I just 
want to make sure that you know I fully support everything that 
the Secretary said.
    But as a few points that I think are important: One, I want 
to thank the committee for the incredible support that they 
have given our young soldiers and their families, especially 
over the last 12 years, when they have had to sacrifice so 
much. You have ensured that we have the right capabilities and 
resources necessary for them to conduct the missions that we 
have asked them to conduct. So, thank you for that.
    It is apparent to everyone that the Department of Defense, 
and specifically the Army, has a specific problem in combating 
sexual assault and sexual harassment. The Army has faced 
difficult tasks before and succeeded. It is imperative that we 
take on the fight against sexual assault and sexual harassment 
as our primary mission. The Secretary and I are committed to 
the safety and security of every soldier, civilian, and family 
member. Our profession is built on the bedrock of trust. Recent 
incidents of sexual assault and harassment further demonstrate 
that we have violated that trust, and we simply cannot tolerate 
this.
    It is our duty and our obligation to create a climate and 
environment in which every person is able to thrive and achieve 
their full potential. It is imperative that we protect victims' 
rights and show compassion for survivors. We must ensure that 
every case is thoroughly investigated and that appropriate 
action is taken.
    It is imperative that we keep the chain of command fully 
engaged at every level. Command authority is the most critical 
mechanism of ensuring discipline and accountability, cohesion 
and the integrity of the force. Therefore, we must take a 
deliberate approach to implementing the necessary checks and 
balances that will ensure commanders and their legal advisors 
reinforce their mutual responsibilities to administer the 
Uniform Code of Military Justice.
    In this effort, we have much work to do. It is up to every 
one of us--civilian, soldier, general, officer to private--to 
solve this problem within our ranks. We must continue our 
dialogue and partnership with Congress about the best ways to 
get after this problem in our Army, in our military, and our 
society at large. We are dedicated to solving this problem.
    Every day, as the Chief of Staff of the Army, I am humbled 
to represent 1.1 million soldiers, 266,000 Army civilians, and 
1.4 million family members that represent the United States 
Army around the world. The Army's primary purpose remains 
steadfast, to win the Nation's wars. And as I sit here today, 
we have nearly 80,000 soldiers deployed: Almost 60,000 in 
Afghanistan, over 10,000 in Kuwait, and additional soldiers 
deployed to Qatar, Turkey, Jordan, and elsewhere across the 
globe.
    In the last 4 months alone, the Army has responded to 
several unforecasted contingencies by deploying a Terminal High 
Altitude Area Defense (THAAD) battery to Guam, patriots to 
Turkey, and command-and-control elements to Jordan. Our 
soldiers, their families, and the American people are counting 
on us to ensure they are resourced to train to the highest 
standard and have well-maintained and capable equipment so that 
when needed, they will be successful while minimizing 
casualties. We cannot place this burden on the shoulders of our 
soldiers, civilians, and families. We owe them more than that.
    In fiscal year 2013, the Army still faces more than $13 
billion in Operation and Maintenance Accounts shortfalls. This 
includes the $5.5 billion reduction due to sequestration, and 
an $8.3 billion shortfall in the Overseas Contingency 
Operations (OCO) accounts. The emergency reprogramming action 
being considered by this committee would restore $5 billion of 
the $8.3 billion of OCO OMA shortfall. However, without any 
additional transfer authority of supplemental, the Army will be 
forced to fund the remaining $3.3 billion OCO OMA shortfall 
from its already reduced base OMA account.
    As a result of these cuts, we are taking the unfortunate 
step of furloughing our valuable civilian workforce for 11 
days. We have curtailed training for 80 percent of the force. 
This means that only the forces who are next to deploy to 
Afghanistan and other operational commitments are conducting 
training. Therefore, our ability to respond to an unknown 
contingency is at an unprecedented level of risk.
    The cost of these actions is clear. We are sacrificing our 
Army's future readiness to achieve reductions today in the 
remainder of the fiscal year. It is in the best interest of our 
Army, the Department of Defense, and our national security to 
avert further cuts through sequestration. But it is not just 
the size of the cuts. It is the steepness of the cuts in the 
near term which makes it impossible to downsize the force in a 
deliberate, logical manner. These cuts will not allow us to 
sustain the appropriate balance of our end-strength, readiness, 
and modernization, and therefore will result in a hollow force.
    Although I do not agree with the size of sequestration 
cuts, if we could backload the cuts, it would at least enable 
us to properly balance end-strength readiness and modernization 
in the out years.
    In 1976, I entered a hollow Army that was rife with 
discipline issues, was not well-trained, and did not have the 
resources necessary to buy the equipment. I am absolutely 
focused on making sure I do not leave this Army in the same way 
that I came into it. It's up to us to ensure that we resource 
our men and women who have sacrificed so much with the proper 
resources to conduct the missions that we have asked them to 
do.
    Thank you, Mr. Chairman. I appreciate the opportunity to 
speak to the committee this morning, and I look forward to your 
questions.
    Senator Durbin. Thank you, General.

                         TRAINING AND READINESS

    Let me say at the outset how much I appreciate not only 
your service to our Nation and the others who are with you, but 
the bravery and commitment of those who serve in all of our 
branches, and today we focus on the U.S. Army.
    I was reading in preparation for this that--it was obvious, 
but it was expressed to me--the Army, our Army, has gone 
through the longest war in its history, and we are at a point 
now that it's coming to an end, and we have to make decisions 
relative to the future of that Army.
    It was a sobering part of your testimony, General, to talk 
about the state of the Army in 1976 and what the state of the 
Army may be at this time, in 2014. I could not agree with you 
more that the sequestration cuts this year, if they are 
repeated again next year, will create a devastating impact on 
our military, and particularly on the Army because of its 
impact on the men and women who serve.
    I recently had a nephew of mine who worked as a doorman 
here in the Senate for a few months before he was off to 
Afghanistan. He went with the Mountain Division out of Fort 
Drum, and we thought about Michael every day. We were hoping 
that there was enough training that he would be coming home to 
us safe and sound, and we counted on that, and he did. Thank 
God he did. Diminishing that training for any soldier is, 
unfortunately, a risk that that soldier may not be as well 
prepared as they should be if they are called on. So it is very 
personal and should be personal to all of us when we talk about 
this issue. It goes way beyond the numbers.
    Let me mention a couple of other things.

                    SEXUAL HARASSMENT/SEXUAL ASSAULT

    Secretary McHugh, thank you and General Odierno for 
focusing on the sexual harassment/sexual assault issue. As we 
read the troubling stories about those who have been charged 
with rooting out sexual harassment being found guilty of the 
same, it raises the question about the assignment, the 
responsibility given to these officers, and whether it is 
viewed as the responsibility that it is, whether it is viewed 
as a secondary assignment without much of a career path. 
Address that, if you will, in terms of how we are going to 
solve this problem.
    Secretary McHugh. Thank you very much, Mr. Chairman. That 
is something that I see as a critically important point. 
Indeed, it is something that the Chief and I and the other 
Service Secretaries and Chiefs talked with the President about 
a week ago tomorrow at a meeting at the White House, where he 
expressed his concern and his expectation that we will direct 
our every attention to this.
    To your point, Mr. Chairman, and it was really the point of 
a message that the Chief and I sent just recently to all 
commanders that we expect commanders, first of all, to pick 
their very best. We don't have data on it, but I am concerned 
to this point that too many of these positions may have been 
filled in a way in which someone had an honorable record but 
was otherwise available. So they were assigned to these, what 
we believe to be, critically important positions.
    Next, as we discussed with the President, there really is 
no reward to a soldier, as there are in other Military 
Occupation Specialties (MOSs) and other fields and occupations 
in the Army, for taking these assignments as a means by which 
to advance their career. So we have to incentivize it, not just 
to encourage commanders to pick their best but to ensure that 
soldiers who serve honorably and do what we expect of them will 
be duly recognized in appropriate ways. I have tasked the 
Assistant Secretary of the Army for Manpower and Reserve 
Affairs to begin to work on, along with the G1, our personnel 
three-star, ways in which we could appropriately do that.
    The other thing I think we have to do, Mr. Chairman, is 
look beyond the service record. Virtually all of the cases that 
you cited, to the extent we have the information thus far, 
including the Air Force example, as you mentioned, involved 
officers with, if not unblemished, awfully good records. And 
while that is an important part of the process of picking these 
individuals, I don't happen to think it is enough. I will sign 
a directive by the close of business tomorrow that will do 
several things.
    One, to expand the records that we check to make sure that 
we are understanding the individual we are picking to the 
greatest extent possible, and that includes the conduct of a 
behavioral health examination, which right now is not done. We 
need to get behind the uniform to understand the kinds of 
people we are picking, and not everyone is suited for every job 
in the Army, and I believe not everyone is suited to do this 
job.
    So incentivize the right people to do the best job they 
can, recognize them for that, and make sure we are giving 
commanders the tools to pick the very best and the most 
appropriate selections.
    Senator Durbin. Thank you, Mr. Secretary.

                           ACQUISITION REFORM

    I want to switch topics for a moment here. I am new to this 
chairmanship, and I am trying to learn, and it is a daunting 
task to educate a senator under most circumstances, and under 
these circumstances even more so. But I've got a good staff, 
and they have given me a lot of briefing materials to read.
    I looked into the acquisition process in the branches of 
the military, and I think you are aware of the fact that the 
acquisition history in recent years has some troubling and 
expensive setbacks when it comes to the U.S. Army. Since 1990, 
the Army has terminated 22 major defense acquisition programs, 
costing the taxpayers billions of dollars. Following the 
submission of the Decker-Wagner reported, you committed to 
implementing several recommendations. I would like to ask you: 
What you have done that has changed the acquisition process, 
and are there any tangible results?
    I would preface it by saying that I asked some people who 
have much more experience in this field than I do when it comes 
to acquisitions why would the Army, of the major branches, have 
such trouble when it comes to acquisitions, and the explanation 
that came back to me was fairly straightforward. The Navy and 
the Air Force understand that the platforms are really the 
bedrock of what they offer in terms of military defense. The 
Army understands that the basic platform they deal with are the 
courageous and well-trained men and women, so they deal with 
the personnel side of it with more focus than platforms and 
perhaps have not developed the expertise they should.
    So I open that question to you for a response.
    Secretary McHugh. Well, you do have a good staff. Those 
statistics came from the Decker-Wagner report, which the then-
Chief of Staff of the Army and I--George Casey and I 
commissioned a little more than 3 years ago. The thing that was 
unsurprising about that report was how consistent it was with 
past reports. And we decided to do something rather unusual, 
and that is not just to read it but to implement its 
suggestions, and it had 76 suggestions or recommendations in 
total.
    We examined those, along with our acquisition 
professionals, and adopted 63 of those. Currently, we have 
fully implemented 55. They are very important and yet very 
fundamental changes that were really required to avoid the 
kinds of problems that were cited in the Decker-Wagner report.
    As we look back and do an autopsy, if you will, of past 
failures, there is no single reason, but there are some 
patterns. We would always allow ourselves to become too 
forward-thinking and began to rely on either totally 
undeveloped or immature technologies. That means you have to 
continue to pay for the development of that technology before 
you can even think about bringing it into whatever program you 
are thinking about. Future combat systems is probably a very 
good example of that.
    The other is we wouldn't set definite milestones to the 
extent that, as development went along, we would keep moving 
the goalposts further and further. We always wanted to have the 
next best thing, and that's understandable. But sometimes, in 
pursuit of fiscal prudence and to make sure you field an 
acquisition program, you have to say good enough is good 
enough.
    And so if you look at the development of, say, the ground 
combat vehicle, our largest and, I think some would argue, our 
most important acquisition program and developmental project 
right now, we took those lessons to heart. We feel that our 
request for proposal in the first instance that had over 900 
must-have requirements. And everyone sat back after it had been 
issued and said, ``You know, here we go again.'' It was a hard 
thing to do, but our ASOL folks pulled that RFP back, 
reconfigured it, redeveloped it, made tradeoffs available to 
the various developers and reduced the must-have requirements 
to less than 200. That will save time, we estimate many months, 
but it will also save money, perhaps as much as $2.5 billion.
    So we have tried to learn the lessons. We have adopted the 
vast majority of Decker-Wagner. We will implement the 
remaining. Most of those have to do with personnel, which right 
now we are constrained from bringing on board.
    Senator Durbin. Thank you.
    General Odierno. Mr. Chairman, I had a few points on that.
    Senator Durbin. Sure.
    General Odierno. First, we do acknowledge everything that 
you just said. The Secretary went through the Decker-Wagner 
report. There are a few other points I would like to make.
    First, he touched a little bit on requirements, and I think 
for us, that is where we have made the most advancement--where 
we now do capability portfolio reviews that look at the 
requirements on the system, do they make sense, are they 
achievable through the technology that is available, and then 
we also make sure that we have room to develop and increment 
improvements over time.
    I always use the example of the M1 tank, which was 
developed a very long time ago. But the difference with the M1 
tank is what was built into the M1 tank was the ability to 
incrementally improve the tank. So today, it is still the best 
tank in the world even though the first one was built 30 years 
ago, and it's because we were able to implement and continue to 
upgrade with technology improvements. So that is a key piece to 
our strategy as we go ahead.
    The other thing is how do we leverage commercial 
technology, specifically in IT. We now have what we call NIE 
and a system that enables contractors to come and immediately 
put into our soldiers' hands technology improvements in IT 
which allows us to test it and then allows us to incrementally 
improve our IT capabilities. That's a change.
    So those two things, that with long developmental items, to 
make sure we have the requirements right, to make sure we 
constantly review them and look at them. We build in room to 
grow in our program. The second is let's leverage commercial 
technology where they are moving much faster than we will ever 
be able to move and figure out how we implement into that 
program. I think those are the two fundamental pieces that 
we're focused on as we move forward.
    Senator Durbin. Thank you.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I'm pleased to yield to 
Senator Shelby, who was here before I was.
    Senator Shelby. That's okay, you go ahead.

                   TRAINING STRATEGIES AND FACILITIES

    Senator Cochran. Thank you, and welcome to the committee. 
We appreciate your service and your leadership of our United 
States Army.
    We are pleased in our State to have training facilities in 
the Hattiesburg area, Camp Shelby, where I guess the realistic 
heat of the summer is something that equips against shock to 
how hot it can get during training and combat activities.
    What is your situation with training facilities now around 
the United States? Do you find that you are doing more and more 
training here, or are there opportunities for overseas 
deployments in areas where you can also conduct training? 
What's the balance that we have for our own U.S.-based training 
facilities compared with other locations?
    General Odierno. So, Senator, so we have a couple of 
different strategies. First, we have home-station training 
strategies for the Active component which enables them to use 
facilities around their home station in order to do a certain 
level of training.
    Then we developed training centers around the country. We 
have the National Training Center at Fort Irwin. We have the 
Joint Readiness Training Center at Fort Polk. We have Camp 
Shelby. We have Atterbury. That allows us to train both our 
Active Guard and Reserve units at a higher level, more 
integrated training.
    We also have the training center in Grafenwohr, Germany, 
where we do training with our international partners, 
specifically our North Atlantic Treaty Organization (NATO) and 
other European allies, which has come in very handy as we have 
fought together in Afghanistan. Those are key pieces of our 
training strategy, to sustain those, because that allows us to 
train our soldiers to the highest quality in the most difficult 
conditions, and that's what's been so concerning, is that we 
have had to cancel seven of those rotations this year. So they 
have not had the opportunity to get that experience.
    We actually use these training areas as certifications for 
the brigade level units so they are certified to conduct--
whether it be a general requirement to meet Op plan 
requirements in Korea or other places around the world, or 
whether it be to potentially train on stability and 
counterinsurgency operations, depending on what their mission 
might be. So it is concerning to us that we are losing this 
because it is fundamental to the readiness of the Army.

                       PRESIDENT'S BUDGET REQUEST

    Senator Cochran. Well, is this reflected in the budget 
request? Are you including in your budget request to the 
Congress the funding that you need to bring these facilities to 
the level you need to have a well-trained military force?
    General Odierno. We believe that we are including what we 
need in order to train in this budget currently. Are there some 
military construction shortfalls potentially? We think we have 
the best training facilities in the world. So what we are in 
the process of doing is sustaining that, and then we have to 
make sure we maintain the money so we have the readiness 
dollars for the units to actually go and use these facilities.
    Secretary McHugh. If I may, too, just to fill that picture 
out, while the budget proposal that the President sent to the 
Hill does, as the Chief said, meet that need, it does not 
include sequestration which, absent some action, is the law of 
the land. We hope that this Congress can find a way to work 
through that, whether it is, as the Chief mentioned, and I did 
in our opening statements, back-loading them into the later 
fiscal years or, if we all had our wish, eliminating 
sequestration. But if we have to revert to sequestration in 
2014, then those training exercises again become a matter of 
grave concern for us.
    Senator Cochran. Thank you, Mr. Secretary.

          MINE-RESISTANT, AMBUSH-PROTECTED VEHICLE DIVESTITURE

    I understand the Army plans to either mothball or whatever 
you call it when you divest yourself of vehicles, to divest 
itself of 13,000 mine-resistant, ambush-protected (MRAP) 
vehicles and only keep 4,000 for training and future 
requirements. I wonder if you've had any opportunity to discuss 
alternatives with any of our Members of Congress or figure out 
a way to respond to contingencies in North Africa or the Middle 
East or wherever the need may arise for the deployment of 
additional vehicles.
    General Odierno. Senator, we have 21,000 MRAPs today in our 
inventory. We are going to put, as you said, approximately 
4,000 into our units. We're going to put another 4,000 into 
what we call Army Prepositioned Stocks (APS) in case we need 
them for other contingencies.
    The other thing this is allowing us to do, we have about 10 
variants. First, I want to thank Congress for everything they 
did to get this done so quickly. But because of that, we had 
about 10 variants, which is very expensive to sustain and 
maintain. We can get it down to three variants. So we go down 
to 8,000, we get it to three variants. We will keep 4,000, 
which is a couple of brigades worth, two to three brigades 
worth of capability that they will be able to pull out and use, 
and then we will also integrate some of those into our current 
formations.
    So we think it is the best use of what is left of our MRAP 
fleet. We can't afford to sustain 21,000 MRAPs because it would 
be in addition to all the other equipment that we have to 
sustain. We think that by keeping 8,000 of them, we can fund 
that, we can sustain that. It gives us the potential to use it 
on contingencies. It also fills some holes in our current 
force.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Durbin. Senator Shelby.
    Senator Shelby. Thank you.

                         SEQUESTRATION IMPACTS

    General, I want to pick up on a little of what Senator 
Cochran was getting at. Could you describe the impact for the 
committee that sequestration has had on the quality of training 
that is provided for our soldiers that are new to the Army? I 
guess my basic question is: Has the Army had to modify because 
of sequestration any training requirements for new soldiers, 
either attending basic or advanced individual training? And if 
not, you are going to be confronted with some challenges, are 
you not?
    General Odierno. Senator, the Secretary and I have made a 
decision that we will continue to fully fund basic entry 
training for our soldiers, both basic training and then 
Advanced Individual Training (AIT). Now, this year there were 
some questions about do we have enough flying hours to train 
our initial pilots. We had to make some other tradeoffs, but we 
now have provided the dollars necessary to ensure that we don't 
have a backlog of pilots at Fort Rucker, because if we did, it 
is problematic because it is very difficult to catch up now.
    If we go into full sequestration, it's going to impact our 
flying hour program. It won't impact basic and AIT training, 
but it's going to start to impact our ability and the number of 
pilots that we will be able to train, which we think will 
probably not be enough.
    Where sequestration comes in is in the operational training 
force. That is where we are really going to be hurting. That 
gets back to what Senator Cochran said.
    Senator Shelby. But basically, if we look at our fighting 
forces now and in the future, we can't afford, can we, as a 
Nation to short-change our training, our future officers, 
enlisted people, equipment, anything, can we, General?
    General Odierno. We cannot, sir. It is abstract to some 
people, but the cost is in lives. That is ultimately what the 
cost ends up being.

                        STRYKER HULL PROCUREMENT

    Senator Shelby. Secretary McHugh, the Double V-Hull Stryker 
was quickly developed, I understand, tested and fielded in 
response to the needs of our commanders in Afghanistan to 
improve survivability of the Stryker vehicle against improvised 
explosive devices (IEDs). The Director of Operational Test and 
Evaluation has found the Double V-Hull (DVH) Stryker to be 
operationally effective and operationally suitable and, most 
importantly, according to them, it has greatly improved 
soldiers' survivability.
    It is my understanding that the Army now has a requirement 
to procure Double V-Hull Strykers for a third brigade combat 
team. When does the Army anticipate it will act on this 
requirement, and when can soldiers expect to start seeing 
additional Double V-Hull Strykers in the field?
    Secretary McHugh. That takes us back to the issue we've 
been discussing repeatedly here, and that is availability of 
money.
    Senator Shelby. Sure.
    Secretary McHugh. We see both the Double V--and you are 
absolutely right, the assessment coming back almost daily from 
Afghanistan is how much the soldiers value this. We have had 
some tragedies and, in fact, one recent one. But by and large, 
it has performed magnificently, and we want to make sure we are 
capturing that lesson learned and go forward by recapping and 
converting into the Double V-Hull.
    We will also have a continuing need operationally for our 
flat, single-hull Humvees. They will be a part of the United 
States Army for some time to come. But as to the third set that 
you are talking about, I believe it was in 2014. But again, 
that is dependent upon funding streams.

                 DISTRIBUTED COMMON GROUND SYSTEM, ARMY

    Senator Shelby. So many things go right to the economics, 
do they not?
    Mr. Secretary, it's my understanding that the Distributed 
Common Ground System, Army (DCGS-A) is the Army program of 
record for intelligence data analysis sharing and 
collaboration. In the Director, Operational Test and Evaluation 
(DOT&E) 2012 annual report issued last December, the DCGS-A was 
found to be not operationally effective, not operationally 
suitable, and not survivable against cyber attacks. While I 
understand that prior to full deployment decision, DOT found 
that Release 1 of DCGS-A capabilities ``were at least as good 
as those provided by the current fielded versions,'' the issue 
of survivability against cyber attacks was not addressed in 
their memorandum.
    Could you provide an update to the subcommittee on the 
current status of the survivability of the DCGS-A against cyber 
attacks? Additionally, it is my understanding that due to the 
large bandwidth requirements of DCGS-A, soldiers deployed in 
forward operating bases in Afghanistan are having difficulty 
using the system. One, are you aware of the bandwidth issue, 
and what is the timeframe that you have for resolving this? And 
how important is this?
    Secretary McHugh. Well, it's very important, and certainly 
the Chief, particularly given his time in theater, could 
explain far better than I as to the critical nature of having 
the broadest possible input of intelligence sources that you 
can possibly gain, providing better information to the war 
fighters.
    As to DCGS-A, I think it is important to note the comments 
that DOT&E made were made about 2 years ago, and really the 
concerns that were registered applied to one enclave of DCGS-A. 
It applied only to the Top Secret/Sensitive Compartmented 
Information (TS/SCI), the highest level. The refinements and 
the improvements that have been made since, particularly to the 
less than TSSCI enclaves, applied to more than 90 percent of 
the intelligence transactions that DCGS-A involves itself in. 
As you noted, after re-examination, the DOT&E determined that 
this was an appropriate fielding.
    I have been to Fort Belvoir. I have seen the DCGS-A 
demonstrated. It is an enormously capable and an enormously 
important capability. But as you noted, for some of the more 
forward deployed troops, there are other systems that are off-
the-shelf commercial systems that we are very interested in. 
But the problem that they have is they provide a very narrow 
band of information, intelligence sourcing, but they do provide 
an ease of use that, in fact, has caused the Army to partner in 
what's called a cooperative research and development agreement 
(CRADA), a research and development agreement with the 
commercial supplier to try to make sure that we have that ease 
of use and the link analysis capabilities that that brings to 
the field.
    But DCGS-A is an essential part of our intelligence 
network, and like all programs of this nature, its exposure to 
electromagnetic pulse and other kinds of attacks is of concern 
to us, and we continue to try to work through those.
    Senator Shelby. General, do you have any comments?
    General Odierno. Yes, thanks. First, as the Secretary of 
the Army said, later, the DOT&E in December 2012 said, ``Okay, 
we have improved everything that they said, and we have either 
mitigated it or have, in fact, improved those deficiencies.'' 
But a couple of other things I would just say.
    The DCGS-A has fundamentally changed how we do 
intelligence. I made a comment a few weeks ago that when I was 
a division commander in 2003 in Iraq, I had less intelligence 
than we now get down to company commanders in Afghanistan. The 
reason is because DCGS-A is a program that integrates all of 
the ends, and it also integrates with other agencies. For the 
first time, we have an intel system that----
    Senator Shelby. Does it integrate and analyze?
    General Odierno. It does.
    Senator Shelby. Okay.
    General Odierno. Integrate and analyze----
    Senator Shelby. And disseminate.
    General Odierno [continuing]. With the other agencies.
    Senator Shelby. Sure.
    General Odierno. And with the bandwidth. So the one thing 
we are working on next is we were getting ready to go forward 
with moving it to the Cloud, and I am not going to get into the 
details because I am not smart enough, but I would tell you 
that we are in the process of doing that, which really tackles 
the bandwidth problem. So you will then be able to reach up and 
take data, and we are in the process of moving forward with 
that now. We have started, and in the next year-and-a-half or 
so, we are going to do that. The Army has dedicated itself 
across all of its IT systems that we are moving in that 
direction because it saves us lots of money, provides us more 
protection, as you just brought up, and will enable us to move 
forward.
    Is the system a perfect system? No. But we have systems in 
place to constantly improve it, and I feel very comfortable 
with where we are going with this.
    Senator Shelby. It's important for the war fighter.
    General Odierno. Absolutely.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Durbin. Senator Pryor.

                             SEXUAL ASSAULT

    Senator Pryor. Thank you, Mr. Chairman.
    I'd like to start, if I may, General Odierno, with the 
sexual assault in the Army. I know that the Army has a multi-
tiered system to address sexual assault in its units, and I 
appreciate that. I just have a couple of questions, though.
    How do you measure the effectiveness of unit victim 
advocates not so much at the 30,000-foot level but down at the 
lower levels? How do you measure the effectiveness there?
    General Odierno. Well, that's a very difficult question. 
But there are a couple of things that I talk about to my 
commanders, and they have to be able to see themselves, and you 
have to have processes in place that allow you to see what 
impact the chain of command and sexual assault coordinators are 
having.
    Senator Pryor. And do you feel like you have that?
    General Odierno. Well, we are working that now. So it's 
things like constant assessments such as command climate 
surveys and other things like that, and sensing sessions where 
they get a feel for do people feel comfortable to come forward, 
do they feel the process is in place that they feel protected, 
do they feel comfortable that their rights are being protected, 
that we are protecting the victim?
    We have had significant conversation about this over the 
last several months. We are moving in the right direction. We 
are certainly not there yet. But those are the kinds of things 
we absolutely have to do as we move forward, and then it gets 
to victim advocates. So the Secretary and I are reviewing what 
do we do about victim advocates. Those are separate from these 
coordinators. I see them coordinating training, coordinating 
programs. How do we establish a victim advocate capability at 
every one of our installations where immediately they are 
working with our young men and women who make an accusation on 
sexual assault?
    So it's those kinds of things that I think will help us to 
get to what you are asking us, Senator.
    Senator Pryor. So it sounds like you are committed to 
getting this right?
    General Odierno. Absolutely.
    Senator Pryor. And let me ask this. I know you are talking 
about, at least when I hear you, I think, mostly Active Duty. 
But what about Reserve and Guard components? Does that create a 
separate set of issues?
    General Odierno. It's different. It's more difficult 
because of when they are not on Active Duty or not in training. 
And so it's about us establishing capabilities that enable them 
to reach out. For example, we're trying to establish Web sites 
and other things where people can reach out. When they are so 
spread out in their civilian jobs, how can they notify us or 
contact us? How do we better reach out to those in the Army 
Reserve and the National Guard? So it's a little bit different. 
The tenets are the same, but it's more difficult. So we are 
working very hard to take a look at that.
    Senator Pryor. And there again you are committed to trying 
to get that right, as well?
    General Odierno. Absolutely.
    Senator Pryor. Understanding the differences.
    General Odierno. Yes.

                 ACTIVE COMPONENT/RESERVE COMPONENT MIX

    Senator Pryor. All right. Let me change gears and ask about 
the Reserve forces. This is a long title. I apologize. But in 
December of 2012, the Reserve Forces Policy Board released a 
study titled, ``Eliminating Major Gaps in DOD Data on the Fully 
Burdened and Lifecycle Costs of Military Personnel: Cost 
Elements Should Be Mandated By Policy.'' Are you familiar with 
that study? It came out in December 2012.
    General Odierno. I am familiar with the study.
    Senator Pryor. One of the things it talks about is 
basically at certain times, when they are not activated, the 
Reserve component cost is less than a third of the active-duty 
component counterpart. You understand that. So the question is: 
Is the Army using the Reserve Forces Policy Board (RFPB) study 
to determine the corrective Active versus Reserve mix? Are you 
all using that study?
    General Odierno. Sure. Well, first, I don't need the study 
because I understand what the costs are already. So to me, this 
is not about costs. It's about costs plus capability plus our 
requirements. So I am a firm advocate that there is a reason 
why we have a total Army. There is a reason why we have an 
Active component. There is a reason why we have a National 
Guard. There is a reason why we have a U.S. Army Reserve. We 
need all three components, and we have proved that over the 
last 12 years, why we need them.
    Yes, they cost a third of the Active component, but they 
are not as ready. They don't meet certain criteria you want 
Active component people to meet. But they provide us 
capabilities that we don't have in the Active component. They 
provide us capabilities, some unique capabilities. They provide 
us depth. They provide us the capability to operate in extended 
war fights, et cetera. So it's a combination of both.
    So what I tell everyone is we are looking at that right 
combination of what we need, and that's why, in the Budget 
Control Act, all of the end strength came out of the Active 
component. We reduced it by 80,000. And as we come forward, if 
we have to go through sequestration, you'll see that we take 
much more out of the Active component than we will the Reserve 
component, and there's a reason for that.
    But in my mind, you cross a line, and I need a certain 
number of Active component. We cannot cross that line. It is 
not one or the other. You need the combination of both to be 
successful.

                            INDUSTRIAL BASE

    Senator Pryor. Let me also change gears and ask either one 
of you. In fact, why don't I ask Secretary McHugh on this. I 
want to ask about the Army organic industrial base, i.e. 
arsenals and things like that. I hate to bring this up, but DOD 
was supposed to have reported back to Congress on February 28, 
2013. They have had some extensions on a report to kind of let 
us know about our capabilities and capacities and kind of help 
us set some policy here.
    But has the Army made a recommendation to the DOD on 
arsenal workload levels to retain critical manufacturing 
capabilities?
    Secretary McHugh. To your exact question, not to my 
knowledge. We have done a lot of work with DOD with respect to 
the need to preserve an appropriate work input or throughput 
with the arsenals, as well as the depots. But unlike depots, 
where under law we have a required assignment of work, the 
arsenals are harder to attribute to those kinds of categories.
    Nevertheless, through the work of DOD and their sector-by-
sector, tier-by-tier analysis, S2T2, and some of the things 
that we have already launched in the Army, we are trying to do 
any number of things to ensure that our arsenals have a 
sustainable throughput, especially enough to sustain those 
high-skilled jobs that are so hard to replace.
    One of the biggest challenges as we look across this fiscal 
landscape and all the kinds of things we discussed here already 
this morning, from the current sequestration to the potential 
of future sequestrations to the continuing resolutions that we 
have operated under, 15 of them since 2010, is that it hinders 
our ability to both assess and effect responses to our organic 
industrial base, both from the depot as well as the arsenal 
side.
    But we, above all others, value these installations, and 
we're going to have and will continue to work very hard to make 
sure, through foreign military sales and other things, that we 
are doing everything to sustain them.
    Senator Pryor. I would like to continue to work with you to 
make sure we get the right workload there and keep that 
capability.
    Secretary McHugh. Absolutely.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Durbin. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Secretary and General, first let me begin by thanking 
you both for your extraordinary service to our country.

                            BUDGET SHORTFALL

    Mr. Secretary, in your statement for the record and as you 
testified today, you stated that sequestration created a 
significant shortfall in the Army's budget, including nearly 
$5.5 billion in the operation and maintenance accounts, and 
there is no doubt that the impact of these budget shortfalls 
are serious and unacceptable.
    It's worth noting and emphasizing, however, that the Army 
faces a shortfall of up to $8.3 billion in overseas contingency 
operations funding as a result of higher than anticipated war 
costs. In other words, the shortfall in the OCO account is more 
than the amount that has been caused by sequestration, if I 
understand your testimony correctly. And it seems to me that if 
unanticipated war costs, which are very difficult to estimate, 
particularly in the kind of environment that we are in right 
now, accounts for more than the Army's entire sequestration 
shortfall, that we need to address the portion of the fiscal 
year 2013 budget shortfall with some sort of supplemental OCO 
request.
    So my question to you is have you requested a supplemental 
from Secretary Hagel or the Comptroller Hale to cover the 
shortfall that has resulted because of unanticipated war costs?
    Secretary McHugh. Just last Friday, the Department 
delivered to the Hill--and it's a large request. It is nearly 
an $80 billion programming request for 2014 that will, in part, 
we hope, accommodate some of these shortfalls we are facing 
here in 2013. And to address those that we are facing here in 
2013, they also submitted last Friday a reprogramming request 
for this year. The Army, of that $8.3 billion you discussed and 
that I mentioned in my opening comments, would have about $5 
billion of that reprogramming to help us to cover that. So it 
is not technically a supplemental request. But both in terms of 
the 2014 OCO and the 2013 reprogramming request, it will go a 
long way towards solving our problem.
    My understanding is, in testimony before Congress a few 
weeks ago, Secretary Hagel has left open the question of a 
possible later supplemental request. But as to this point, I'm 
not aware that a decision has been made in that one area.
    Senator Collins. General.
    General Odierno. So, Senator, with the math that the 
Secretary just did, we have a $3.3 billion shortfall right now. 
We are taking a risk right now with that $3.3 billion. So what 
we have had discussions about, as the Secretary just said, is 
that if this continues, we might have to come forward and ask 
for some help in 30 or 35 days or so if we can't mitigate it in 
other ways. We have had initial discussions with Secretary 
Hale, and as the Secretary said, he has left the door open for 
a potential request.
    So we have talked about this. We want to make sure we need 
the money. We think we are going to. We want to see it play 
out. For example, the locks have now opened in Pakistan, so 
that reduced costs. So we're trying to make sure before we ask 
that we absolutely need the money. But we're going to have to 
come forward soon if we don't see some improvement.
    Senator Collins. Mr. Chairman, I think this is a really 
important point, that some significant shortfalls are not the 
result of sequestration but they are the result of 
unanticipated war costs, and I think we need to deal with both. 
I don't think unanticipated war costs should cause us to rob 
the underlying Army budget, and I fear that's what has 
happened, and it is a huge amount. It is more than the amount 
of sequestration. Let me just be very clear. I think 
sequestration is also a huge problem that we need to deal with, 
but we also need to deal with that.

                   CRIMINAL ACT PUNISHMENT STANDARDS

    Let me just briefly switch to a different issue. It has now 
been approximately three-and-a-half years since the shooting at 
Fort Hood that led to Major Hasan being charged with killing 13 
soldiers and civilians, and injuring dozens more. In the 42 
months since that attack, and it was a terrorist attack, Major 
Hasan has continued to receive approximately $6,500 per month 
in base pay, totaling more than $292,000.
    There is a difference between the way a civilian Defense 
Department employee is treated in such circumstances and a 
military servicemember. All of us, because of the epidemic of 
sexual assault, have become very attuned to differences in the 
civilian versus the military system, and if Major Hasan had 
been a civilian employee of the Department of Defense, the Army 
could have suspended his pay in just 7 days because the 
personnel rules for civilian Government workers allow for 
indefinite suspensions of pay in cases ``where the agency has 
reasonable cause to believe that the employee has committed a 
crime for which a sentence of imprisonment may be imposed.''
    Why do we have a different standard for Defense Department 
civilian employees who are accused of a serious crime than we 
do for servicemembers who may be accused of exactly the same 
crime?
    Secretary McHugh. In these kinds of very emotional issues, 
as Secretary it is hard for me not to editorialize and let my 
emotions get in my way. So I will provide you the legal answer, 
and that is with respect to the military and the case in point, 
Major Hasan, is the Uniform Code of Military Justice, set by 
law, requires he be treated and continue to be paid until such 
time as his case is disposed of and his status in the military 
is resolved.
    Senator Collins. Do you think that there should be a 
difference between the way a civilian Defense Department 
employee would be treated when it comes to being charged with a 
serious crime versus a military employee when it comes to the 
pay issue?
    Secretary McHugh. I think everyone should be subjected to 
the presumption of innocence. I didn't write that particular 
provision of the Code, but I assume that is the underlying 
provision with respect to the Uniform Code of Military Justice 
and the payment issues that you raised. I would hope that, even 
though personnel administrators and commanders may have the 
authority under law, that we would provide civilian employees 
the same presumption, to the extent it is appropriate.
    Senator Collins. That's what bothers me. I don't understand 
the difference in treatment. If both continue to receive their 
pay because of the presumption of innocence, I would understand 
that. But I don't understand the disparate treatment.
    Secretary McHugh. Senator, I am not an attorney, and I 
don't want to get either myself or the Army in trouble. I 
suspect it is that in the military, we have ways by which we 
can isolate people who have been accused, keep them, in 
essence, segregated from the workforce, and therefore, we are 
allowed to extend them that treatment and that presumption of 
innocence in that way. In the civilian sector, we don't have 
those authorities, and this isn't, by the way, just the Army. 
This is any Federal agency.
    Senator Collins. I understand.
    Secretary McHugh. And therefore, you are allowed to remove 
them from the workplace. I also assume that if the law were 
followed to his extent, that if that civilian employee of the 
Federal Government were later proven to be innocent, that they 
would have to take remediative steps with respect to their 
Federal employment.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Senator Durbin. Senator Murray.

                             SEXUAL ASSAULT

    Senator Murray. Thank you very much, Mr. Chairman.
    As you both know, Senator Ayotte and I introduced the 
Combating Military Sexual Assault Act earlier this month. This 
bill is very important. It's going to help provide services to 
fight this sexual assault epidemic and help provide the about 
26,000 servicemembers who were sexually assaulted last year 
with the support they need.
    But to me, especially troubling are the recent cases at 
Fort Hood and Fort Campbell, where soldiers were placed into 
positions of trust, and they were dealing with victims of 
horrendous crimes. They should be absolutely the last people in 
those positions. And in the Sexual Assault Prevention and 
Response Office (SAPRO) report that was released on May 8, the 
Army pointed to its Sexual Harassment/Assault Response 
Prevention (SHARP) program as key to changing a culture that 
allows sexual assault. When we see this kind of behavior by 
soldiers who are administering the SHARP, how much faith should 
we all have that this is going to come about with the cultural 
transformations that are so badly needed?
    Secretary McHugh. Well, Senator, I want to assure you, as I 
stated, tried to convey in my opening remarks, we share your 
concern and disgust, particularly at the kinds of cases that 
you've mentioned. In an earlier response, I noted that I don't 
think we have taken the right approach to picking people who we 
expect to protect others, whether it be a victims' advocate or 
a SARC.
    Senator Murray. How were they picked?
    Secretary McHugh. Well, we expect commanders to pick people 
who are appropriate for the job, who have the record to fill 
that position adequately. We do not have a military 
occupational specialty for these, and that's part of the 
problem in terms of----
    Senator Murray. It was like it was a throw-away position, 
you know?
    Secretary McHugh. I'm sorry?
    Senator Murray. It seemed to me like it was just a throw-
away position, just pick somebody to do this.
    Secretary McHugh. I hope that's not true, but we are taking 
steps, and I've signed a number of directives already to ensure 
that it isn't true. The Chief and I sent out a letter to all 
commanders just a few days ago saying that we are intending to 
hold them accountable for not just picking someone for these 
very important positions who are available, but also we expect 
them to pick the very best.
    The other part of that is to provide some sort of 
recognition for people who take that job, like we do for other 
jobs in the military, who serve honorably, who do a great job, 
perhaps some consideration on promotion points or some other 
kinds of appropriate military recognition. Without those kinds 
of incentives, if people don't feel that the jobs are 
important, they're not likely to bring the kinds of assets and 
attributes that we wish.
    The other thing I'm not satisfied with is the structure of 
the background checks.
    Senator Murray. The screening.
    Secretary McHugh. I don't think we go far enough.
    Senator Murray. Are we going to?
    Secretary McHugh. I will sign a directive, as I mentioned 
earlier, this week that will dramatically expand the criminal 
records checks that we go through for these people, and beyond 
that I am going to require a behavioral health screening, 
something that isn't provided right now. I think it's 
essential.
    Senator Murray. When will that take effect?
    Secretary McHugh. Well, I haven't signed the directive yet, 
and we're hopeful this summer. The problem is putting the 
process into place, respecting Health Insurance Portability and 
Accountability Act (HIPAA), making the information available to 
commanders, and making sure we have the behavioral health 
professionals to do the screening. As you know from your 
experience and your leadership up at Joint Base Lewis-McChord 
(JBLM), those cadre of personnel are one of our least 
structured, are most in demand. So I don't want to give a 
directive that is doomed to fail, but certainly by mid-summer 
we should have that under way.
    General Odierno. Senator, if I could just add, last week I 
did a worldwide VTC with every commander to talk about this 
very specific thing, and I asked them to do an informal 
rescreening of every SARC until the Secretary's directive could 
come out, and they have gone back. They are doing that now and 
they are reporting back to me that they have done at least 
another informal screening. We're hoping that will help until 
we can get the directive out so we can do this.
    We have made it very clear how important these positions 
are. We might not have done that in the beginning, and maybe we 
should have. But there are things we can do, and the Secretary 
mentioned some of them, and I told him we are going to do this. 
We can give guidance to promotion boards. We can give guidance 
to how important we believe these positions--they should be the 
best people. I have put out guidance that says this is now our 
number one mission.
    Senator Murray. Does each and every commander understand 
that these crimes will not be tolerated?
    General Odierno. They do, they absolutely do. I am 
confident that they do understand that.
    Senator Murray. Will they be held accountable for them?
    General Odierno. They will, and if we have those who don't 
want to get with the program, we will take action to make sure 
they no longer have the authorities.
    Senator Murray. Okay. I mean, I've been at these hearings 
many times, and obviously the people sitting in front of us 
understand this. This clearly is a cultural issue. It needs to 
be understood all the way down that it will not be tolerated, 
and I expect all of you to follow through on that.
    Secretary McHugh. You have our promise, Senator.

                           BEHAVIORAL HEALTH

    Senator Murray. Okay. One other quick line of questioning. 
A year ago, both of you announced the launch of a comprehensive 
review of the Army's approach to behavioral health diagnoses 
and evaluations. This past February this review was completed, 
and its findings and recommendations were released in the 
corrective action plan, as you know. When we last talked about 
that, I had a number of questions about those recommendations 
and how they were going to be implemented and how they benefit 
soldiers and families, and I wanted to ask you today have they 
improved the experience of soldiers going through the process 
in terms of knowing where they are in that system and 
misdiagnosis concerns and appeals?
    Secretary McHugh. Well, starting with the latter part of 
it, which really, as you know better than anyone because you 
were a great leader in the effort, the misdiagnosis, the 
changing of diagnoses, and I think the frustration by those to 
whom that happened as to appeal rights, I don't want to say it 
has been totally fixed, because I never know what I don't know, 
but I think we've come a long way, and certainly from the rule 
and regulatory perspective, as you are aware, we have totally 
eliminated the past practices that I think, perhaps with good 
intention but in our minds inappropriately caused diagnoses to 
be changed and soldiers to be out-processed under improper 
descriptions.
    So I think that that whole effort--it was done in concert 
by the Vice Chief of Staff of the Army and the Under 
Secretary--helped us to come a long, long way, and we are doing 
much better. The behavioral health piece of the disability out-
processing system is probably one of the better run. We 
continue to experience backlogs and a slowness of processing 
through the physical evaluation side of that, and we are 
continuing to work both at the Department of Defense (DOD) 
level and Veterans Affairs (VA) to make sure that we are not 
adding to the pain of these soldiers that in many cases have 
already suffered pretty terrible both seen and unseen wounds by 
some bureaucratic process that just doesn't respond to their 
needs.
    Senator Murray. Okay. Well, I appreciate your continuing 
attention on that. I just wanted to ask you what you are 
learning from this, influencing the system-wide review that is 
going on under DOD?
    Secretary McHugh. Well, yes. I mean, we are conveying to 
Personnel and Readiness (P&R) at DOD all of our activities 
here. Obviously, they are deeply concerned about it. I know we 
have meetings with the other secretaries of the other services, 
and we always try to go to school on each other's lessons 
learned, and that is happening here. I don't want to tell you 
they are adopting all of our same protocols and procedures, but 
I think there is a commonality now that probably didn't exist 
before.
    General Odierno. And I would just say that the Behavioral 
Health Task Force recommendations have been briefed. They 
understand what they are. They understand the actions that 
we've taken. We've been very clear to make sure that they 
understand all that, and we think it is influencing. I'm not 
saying it completely replicates, but it is certainly 
influencing it.
    Senator Murray. All right, and I am out of time, but I 
would like an update on the quality assurance plan that is 
supposed to be developed, when you have an opportunity.
    [The information follows:]

    As required by the National Defense Authorization Act for fiscal 
year 2013 (Public Law No. 112-23), section 524, the Office of the 
Secretary of Defense (OSD) will develop a plan to standardize, assess, 
and monitor the Military Department quality assurance programs for 
disability Medical Evaluation Boards (MEBs), Physical Evaluation Boards 
(PEBs), and Physical Evaluation Board Liaison Officers (PEBLOs). 
Congress established the following objectives for the Military 
Department quality assurance programs: (1) ensure accuracy and 
consistency in the determinations and decisions of MEBs and PEBs; and 
(2) monitor and sustain the proper performance of the duties of MEBs, 
PEBs, and PEBLOs. This report outlines the Department's plan to 
standardize, assess, and monitor the Military Department disability 
quality assurance programs.
    This effort is led by the OSD Office of Warrior Care Policy. The 
Department of the Army has been an active participant in this effort, 
contributing detailed descriptions of our Quality Assurance (QA) 
methodology, quality control measures, and comprehensive training 
programs that have greatly informed the DOD QA Plan development 
process. The Army's robust QA processes, training programs and QA 
assessment tools have been offered as a model for standardization 
across the Department of Defense.
    The OSD Office of Warrior Care Policy will submit a full report to 
Congress, as required by Public Law No. 112-23, section 524, in July 
2013.

                            QUALITY OF LIFE

    Senator Durbin. Thank you, Senator.
    I'd like to address a couple of quality-of-life issues. One 
of them was identified by the Consumer Financial Protection 
Bureau, Holly Petraeus. She has noted, as others have, that it 
was about 7 years ago that we passed a law. I believe our 
colleague, Senator Talent from Missouri, was the author of 
this, and it addressed the Military Lending Act and capped the 
interest rate that could be charged to those in the Active 
military for loans.
    It turned out at that time it was a serious problem. Many 
members of the military were getting deeply in debt, and many 
times with predatory lenders who were charging them exorbitant 
amounts in interest and the like. This not only affected their 
performance and their stress levels but their role in the 
military. If a soldier were deeply in debt, it may affect his 
ability to get a security clearance, for example. In the 
ultimate case, that soldier may be forced to leave the military 
after being trained and ready to give his life or a major 
career to it.
    So we created this lending act and capped the interest rate 
at 36 percent. Well, it turns out it didn't work. The lending 
institutions have found ways around our law and are back to 
their old tricks, dragging many members of the military deeply 
in debt. I'm told--I haven't seen it personally, but what I've 
read is that as you approach many military bases around the 
United States, you find long rows of pawn shops and payday 
lenders and title loans and all the rest of these things that 
lure people in the military into debt, which might ultimately 
cost them their career.
    Second to this is the whole question of the training of 
Active military and their families for education courses and 
other courses that they can take while in the military. There 
are over 300,000 in the Army who currently are taking advantage 
of these. More than half of these courses are being offered by 
for-profit schools. We have found in many other analyses that 
for-profit schools are extremely expensive and, secondarily, 
not very good. It ends up luring the military into deceiving 
courses at institutions with deceiving names, like the American 
Military University, which turns out to be nothing more than a 
for-profit front that produces very little by way of education, 
while that soldier and the family of the soldier use up 
whatever benefits they have for education and training, unaware 
that they are going to a sub-par operation.
    Those two things seem to go right to the question of 
quality-of-life in the military. Secretary, have you run into 
either of those two?
    Secretary McHugh. We absolutely have. I'm somewhat 
predisposed on the first issue you raised because I was the 
Personnel Subcommittee chairman on the Armed Services Committee 
in the other House when that came through, and some of the 
things that Holly Petraeus brought to us were real eye-openers. 
My recollection is, as yours, Senator Talent did lion's work on 
that and is something that I fully support.
    Clearly, it continues to be a problem. Predatory lenders 
are something that we want to help every soldier and their 
family avoid. But every time a law is passed, we seem to be 
dealing with it in a new permutation. We certainly would be 
more than willing--we would be delighted to work with you and 
other Members of the Congress to see if there are ways in which 
we can limit that.
    As you noted, Mr. Chairman, we do try to offer education as 
part of our in-processing as to basic financial responsibility 
and offer it to our family programs, but soldiers, particularly 
over the last 12 years, have had a pretty full plate on 
training and they often understandably have other things on 
their minds. But to the extent we can refine that, we certainly 
want to do it.
    As to the issue of for-profit schools, they have been a 
problem historically--not all of them, of course. I think their 
roots go into a pretty positive way, and that is online 
learning. It was a very convenient way for soldiers, 
particularly forward deployed, to continue to pursue their 
higher education needs, and that gave birth to many good but, 
as you noted, other not so good institutions who provide that.
    I think we have come quite a ways. I think the major way in 
which we try to weed the good from the bad is through 
accreditation standards. We accept only national and academic 
accrediting institutions as occurs through private universities 
and colleges throughout this country. Also, just last month, I 
believe, the Department of Defense finalized its memorandum of 
understanding approach where every school that is going to 
receive tuition assistance dollars through the Army and the 
Department of Defense has to sign a memorandum of understanding 
that covers a whole host of requirements as to you have to open 
yourself up to inspections, you have to have certain standards 
of disclosure of your costs; meaning, to your point, full 
disclosure, like when you buy an automobile, what is this 
really going to cost me in the end, and other kinds of measures 
that I think will be helpful.
    But as we've learned, people who are trying to take 
advantage of other people adapt very quickly, and this I 
suspect will be an ongoing challenge.
    General Odierno. Senator, if I could just----
    Senator Durbin. General.
    General Odierno. I have a lot of experience with this 
issue, and none of it is very good experience. First, I meet 
with Holly Petraeus regularly. She was in about a month ago to 
lay out what she's found, many of the things you just talked 
about, and what she's working on now. And we also have her and 
her colleagues really talk to many of our leaders to discuss 
what they're finding.
    We have predators, and they are predators on young 
soldiers. They tend to go after the brand-new soldiers and 
families. When they first show up at installations they grab 
them very quickly and they try to take advantage of them, 
specifically with high-percentage loans and other things.
    We have financial advisors in every battalion. Now, it is 
an additional duty, but they have been trained to give 
financial advice. We are worried because all of our families 
are used to having a bit more money because of all the 
deployments. As our deployments go away, they're going to have 
to get used to lower salaries because of all the benefits 
they've been given for being deployed. So it is a concern of 
ours as we move forward that we might see more financial 
difficulties, especially with our younger soldiers. So this is 
something that I think we have to be very careful about.
    I also would say with tuition assistance, which we believe 
is an incredibly important program, that we have many of these 
for-profit organizations taking advantage of maximizing the 
dollars they get from tuition assistance. So they're driving 
the costs up, and it's almost making it unaffordable for us. So 
we have to go after this problem. About 42 percent of all 
tuition assistance goes for for-profit universities in the 
Army. So this memorandum of understanding that the Secretary 
just mentioned is key to at least make sure they're accredited.
    But I also think there are other ways we can do to reduce 
the cost as well as we manage the tuition assistance program. 
We think it's essential because we want our young men and women 
to improve themselves, but we've got to get it under control in 
terms of cost. I think there are going to be some things that 
we work on for 2014 specifically that will enable us to still 
provide this to our soldiers, but do it in a way where we are 
not what I would consider to be wasting some dollars as we do 
it.
    Senator Durbin. That's really good to hear, and I want to 
work with you on this. We should have a higher concern over the 
impact on military and their families. That should be the 
starting point here. Clearly, there is a larger issue to 
America at large in terms of the same exposure to the same 
exploitation. But if we can make the case in the military, and 
I think we can, then I hope that it will lead us to make 
reforms in some other areas as well.
    Senator Cochran.

                           BUDGET SHORTFALLS

    Senator Cochran. Mr. Chairman, I think from the testimony 
we've heard today, it appears that supplemental funding is 
needed to cover shortfalls for ongoing operations in 
Afghanistan.
    General Odierno, we would appreciate your providing the 
committee a list of such shortfalls for the hearing record.
    General Odierno. We will do that, Senator.
    [The information follows:]

    The Army has experienced higher Operation and Maintenance (OMA) 
Overseas Contingency Operations (OCO) costs than initially projected 
over the course of the fiscal year. These shortfalls initially 
approached nearly $10 billion and Army has worked diligently to reduce 
the shortfall, which currently stands at $8.3 billion. Continuous 
reviews with ARCENT update the status of requirements as the year 
progresses. The reason for the increase from $7.8 billion to $8.3 
billion is primarily due to Strategic Lift requirements internal to the 
ARCENT Theater of Operations. Components of the unfunded requirements 
are:

                        [In thousands of dollars]
------------------------------------------------------------------------
                        Activity                            Current UFR
------------------------------------------------------------------------
LOGCAP..................................................       1,483,725
Stock fund..............................................       1,607,835
Non-stock fund..........................................       1,498,000
In-theater maintenance [ITM]............................         791,675
Subsistence for civilians...............................         145,000
Premium transportation..................................         234,000
TACSWACAA...............................................         200,558
160th Signal BDE........................................          43,973
Second destination transportation.......................       1,385,920
                                                         ---------------
      Subtotal..........................................       7,390,686

CLS ISR BA4 capability support..........................         285,500
                                                         ---------------
      Subtotal..........................................       7,676,186

STRATLIFT...............................................         600,000
                                                         ---------------
      OMA OCO Total.....................................       8,276,186
------------------------------------------------------------------------
As of: 6 May 2013

Activity Details
    Theater Operations (LOGCAP, Stock Fund, Non-Stock Fund, In-Theater 
Maintenance).--Fuel, repair parts, and other supplies for units 
continue to be consumed at a high rate, in correlation with active 
combat operations. While USFOR-A has closed a considerable number of 
FOBs and COBs, a significant number remains, including the large hubs 
in Kabul and Kandahar which account for the majority of the LOGCAP and 
local service contract costs.
    Subsistence and Premium Transportation.--Army is responsible to 
fund subsistence and the transportation of subsistence items for all 
servicemembers, DOD Civilians and Contract personnel in Theater. The 
number of civilians and contractors currently in Theater exceeds the 
projected President's budget 2013 level developed last year.
    Total Army Communications Southwest Asia, Central Asia (TACSWACAA)/
160th Signal BDE In-Theater Support.--These programs provide a robust 
strategic communications capability in the Central Command Area of 
Responsibility (AOR). 160th Signal BDE In-Theater Support provides all 
combat and combat support forces communication engineering/logistics/
security support. TACSWACAA provides the tactical ability to perform 
command and control (C2), requisition of repair parts/supplies, and 
transportation operations in-theater. These programs rely on 
contractors to reduce the deployment (potentially a brigade-size 
element) of Signal Corps Soldiers.
    Second Destination Transportation (SDT).--While the Pakistan Ground 
Line of Communication (PAK GLOC) is open, it has yet to achieve its 
pre-closure rates. 20 percent of the export cargo shipped for the month 
of April flowed along the PAK GLOC. As it continues to mature, we 
anticipate approximately 55 percent of export cargo will move on it. 
The remaining export cargo will flow along the other three routes, the 
Northern Distribution Network (NDN), multimodal, and direct air, which 
will balance the goals of cost avoidance and risk reduction by 
maintaining viable retrograde options. The PAK GLOC is fragile in terms 
of opening/closing due to political and military events. If it is 
closed again for some reason or does not achieve the desired level of 
throughput, the Army will have to increase its use of the other more 
expensive routes.
    Contract Logistics Support (CLS) ISR, PGSS/VADER.--Persistent 
Ground Surveillance System (PGSS) is a stand-alone tethered aerostat 
well-suited for small to medium-sized sites. PGSS provides radar 
systems to cue aerostat payloads providing near real-time eyes on 
target. PGSS also provides a communications platform for EPLRS/
SINCGARS. Vehicle and Dismount Exploitation Radar (VADER) allows 
accurate Ground Moving Target Indicator (GMTI) data and Synthetic 
Aperture Radar (SAR) imagery readily available to ground commanders. 
The antenna is designed to support multiple missions, including the 
capability to detect dismounts and facilitate the exploitation of this 
data.
    Strategic Lift (STRATLIFT).--STRATLIFT supports deployment and 
redeployment of Soldiers and Equipment to the CENTCOM AOR, including 
the intra-theater movement and shipments associated with MRAP shipments 
to Theater.

    Senator Shelby. Mr. Chairman.
    Senator Durbin. Senator Shelby.

                      FORT HOOD SHOOTING INCIDENT

    Senator Shelby. Mr. Secretary, I'm going to the Fort Hood 
incident now that Senator Collins brought up. That's in its 
fourth year. It's been over 3 years, starting in the fourth 
year, since the shooting occurred.
    Secretary McHugh. It was in the fall of 2009, sir, yes.
    Senator Shelby. What's the status of this? You know, this 
is troubling to me and others. We've heard it all our life: 
Justice delayed is oftentimes justice denied. And this person, 
I'm sure he's presumed to be guilty--I mean presumed to be 
innocent under his rights. But on the other hand, I often 
wonder, when you delay, I wonder if at times--and I hope not--
that the prosecution is not out-gunned by the civilian lawyers, 
you know the lawyers, whoever they are for him, because you put 
this case off and you delay it and you delay it and you delay 
it, and as we all know, it's not in the news.
    And I think about the victims there, and I think about what 
I call a dastardly deed. What's the status of that? We're into 
the fifth year, I believe.
    Secretary McHugh. As I said, the alleged crimes occurred in 
the fall of 2009, shortly after I became Secretary.
    Senator Shelby. We know. I'm not blaming you or anything.
    Secretary McHugh. No, no, no.
    Senator Shelby. I'm just curious about--you know, this is 
troubling.
    Secretary McHugh. Well, it's frustrating, and I'm sure it 
is to most, if not all, as you noted, of the victims and, of 
course, their families, who are----
    Senator Shelby. Absolutely, the victims.
    Secretary McHugh [continuing]. Interested in seeing justice 
done. Unfortunately--and I don't know as we're much different 
in the Army, in the military here than in civilian cases--there 
are means by which trials are delayed. Some seem appropriate, 
some others less so. The defense--and I don't want to 
characterize----
    Senator Shelby. Sure. You can't.
    Secretary McHugh [continuing]. The reasons for all of the 
delays, but the defense has been provided, at its request, 
opportunities to do some things and delays and such. The 
current schedule calls, I believe, for the actual jury 
selection and trial to begin this summer, 1 July they tell me 
now. However, just to cast it in a realistic light, we've had 
set dates before that seem to move to the right. But for the 
moment, that's when the court case is set to begin.
    Senator Shelby. I know you can't accelerate it or delay it 
or any of that. But as you said, you used the word 
``frustration.'' It's bothering, that length. There are not 
many murder trials in civilian courts delayed 4 years. You 
know, you have expeditious--you've got a speedy trial.
    Secretary McHugh. Part of it was also the delay caused by 
the medical condition of the accused.
    Senator Shelby. Sure.
    Secretary McHugh. But I understand fully your concern.
    Senator Shelby. I hope justice will be done.
    General, do you have any comment?
    General Odierno. I would just say I agree with your 
assessment that--you know, I worry about, as we wait for this 
to go through----
    Senator Shelby. Out of sight.
    General Odierno [continuing]. It has to do with morale, 
discipline, it has some impact on that, to get it done. Again, 
I'm not a lawyer, but I believe also the fact that we're 
seeking the death penalty is a reason for the extended piece of 
this because of what goes on when you go after the death 
penalty. So I think that's part of what this is about, as well.

                           APACHE PROCUREMENT

    Senator Shelby. Shifting to something else, is the basic 
delay on the purchase of the latest edition of the Apache 
helicopter from 48 to 42, is that basically a lack of funds?
    General Odierno. That has everything to do with a lack of 
funds.
    Senator Shelby. Okay.
    General Odierno. We had to make some choices. 
Unfortunately, that's one that we had to make.
    Senator Shelby. Thank you.
    Senator Durbin. Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    I got here a little bit late. I don't want to have you 
repeat a lot of things you have already discussed, and I may 
have some questions for the record. But two things that relate 
specifically to conversations I'm having with people in 
Missouri.

                           CYBER CAPABILITIES

    One, General Odierno, is we're talking to General Danner at 
the National Guard, the cyber unit that they have is really 
linking up consistently with critical infrastructure and in 
virtually every case is somebody in the National Guard cyber 
unit that then goes to work at their other job and they work in 
IT, and I've been talking to General Alexander some about what 
we could do with Cyber Commando to take more advantage of 
people who are out there every day being paid by somebody else 
to keep up to date on IT. I think one of the estimates is we're 
maybe 8,000 people short of where we need to be, and how do we 
get those people. But I wonder if you have any thoughts about 
that.
    General Odierno. I do. We are moving--General Alexander now 
has provided the services, the capabilities he thinks he needs 
to execute our cyber strategy at the national level. The Army 
also has requirements at the operational tactical level.
    We are building a structure that will take advantage--it 
will be a combination structure that will be in the Active and 
the National Guard and U.S. Army Reserve structure that will 
mirror each other, which will give us significant capability to 
support General Alexander at the national level, and also help 
us at the operational tactical, because we want to take 
advantage of exactly what you just said, Senator. We think the 
National Guard and the Army Reserve can provide us a 
significant capability here, and faster than we probably can in 
recruiting people to come on Active Duty or Department of the 
Army civilian.
    So we are in the process of putting together our 
organization. We're going to lay out an extensive plan, and I 
guarantee you, you will see a plan where the National Guard and 
U.S. Army Reserve mirror and leverage the unique qualities and 
capabilities that they can bring as we support General 
Alexander's plan from the national perspective, but also the 
Army plans for the operational and tactical side of operations 
in the future.
    Senator Blunt. I said I think it's a place where the 
private sector synergy is incredibly beneficial. I mean, years 
ago, when I was Secretary of State in Missouri, the securities 
commissioner worked for me, so we regulated the securities 
industry at the State level, and my view always was no matter 
who I hired, that was an area that was changing so quickly that 
6 months later they probably weren't quite as good as the day I 
brought them in unless we constantly interacted with people out 
there, and here you've got a chance to do so much of that.
    General Odierno. One of the things that we're--training and 
doctrine are looking at is what we call the Appeal, which is 
looking at everything to do with cyber, and one of the things 
is our training capabilities and do we make it a specific, now, 
specialty in the Army. And so if we go about doing that, it's 
to get at exactly what you're talking about so we can keep 
people up-to-date----
    Senator Blunt. Right.
    General Odierno [continuing]. On the latest technologies, 
the latest capabilities.
    So we are focused on that, and I expect that we're going to 
come out in the next 3 to 4 months with a full strategy on how 
we're going to execute this. We are obviously doing some things 
now. We have some capability in the National Guard. We have 
some capability in the Active component. But we're going to 
come out with an extensive plan on how we're going to lay this 
out throughout the force.

                      TRAINING AT FORT LEONARDWOOD

    Senator Blunt. And, Secretary McHugh, I had about 20 people 
in my office yesterday from Fort Leonard Wood, who were really 
pleased that you were there just a few days ago, and they were 
some of the people that you spent time with while you were 
there, and obviously everybody is concerned about impact on 
their community and bases. In a fort like that, that's 
surrounded largely by national forest, which is a good thing in 
terms of training opportunities, but it means that the economy, 
the impact on the economy of an installation like that is 
greater than it might be if it was in a more urban commercial 
area, and they're concerned about that. And then both that and 
proportionality are a couple of the things I hope you're 
looking at as you look at the difficult task you have in front 
of you.

                   FORCE STRUCTURE/STATIONING CHANGES

    Secretary McHugh. Well, the folks both inside the gate and 
outside the gate were just great to us, and I felt right at 
home because, as you know, Senator, I come from a highly rural 
part of America as well, and it reminded me a lot of home, so 
it was a great visit.
    The thing that really impressed me, as you and I have 
discussed in the past, was the range of training that occurs 
there, and we've talked a lot about with young soldiers coming 
in and older soldiers getting better. But you've got the 
Military Police (MP) school there. You've got a sapper. You've 
got all kinds of great activities that I think will always be 
an important part of the Army. We've made considerable 
investments in that facility, and those are the kinds of 
things, as you noted, that as we make these hard decisions 
we'll consider very, very carefully.
    You know, we're working through these determinations and 
probably will have some decisions to announce within a month or 
so. But I think everyone should be aware, given the breadth of 
what we're required to do because of the Budget Control Act, 
let alone sequestration, but simply because of the Budget 
Control Act, virtually every post, camp and station will feel 
some impact. So our job is to make the best possible decisions 
both for the Army, of course, and the taxpayer, but also for 
those bases that have stood tall and done great things, of 
which Fort Leonard Wood is certainly one.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Blunt. Right. Well, I recognize the challenge of 
the timing here, but our job, the job that the Chairman is 
going to lead us through, is probably benefitted by knowing as 
much as we can about the directions we're headed before we 
begin to allocate resources in this appropriations effort. I 
don't envy you, the job you have to do, or the job we have to 
do, but it's something we're going to have to deal with.
    Thank you, Chairman.
    Senator Durbin. Thanks for your service and your testimony.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted to Hon. John M. McHugh
            Questions Submitted by Senator Richard J. Durbin

                          ROCK ISLAND ARSENAL

    Question. Secretary McHugh, with sequestration and the ongoing 
drawdown in Iraq, I am very concerned about the effects on our defense 
industrial base. For instance, the Rock Island Arsenal (RIA) in 
Illinois is home to the Joint Manufacturing Technology Center, the only 
foundry operated by the Army. It is a full-service, cutting-edge 
facility with a diverse array of competencies, including forging, 
machining and friction stir welding.
    However, as at other arsenals and depots across the country, a lack 
of workload threatens the ability to maintain critical capabilities and 
establish public/private partnerships--ultimately affecting military 
readiness and local economies.
    I know the Army Organic Industrial Base Strategic Plan--per 
congressional directive--is near completion and will help map a way 
forward, but how concerned are you about this and what are your 
thoughts on the best way to maintain our defense industrial base?
    Answer. The Army is deeply concerned about the industrial base and 
our ability to retain needed skills and capabilities. Support for the 
Army Organic Industrial Base (AOIB) remains a priority for the Army as 
we execute the Organic Industrial Base Strategic Plan signed last year 
on October 15, 2012. The Army developed, and is in the process of 
implementing the AOIB Strategic Plan. The AOIB Strategic Plan provides 
the roadmap and management framework to ensure the AOIB remains viable, 
effective, and efficient. In addition, the AOIB Strategic Plan focuses 
on identifying critical risk areas and establishes a common framework 
to develop mitigation strategies to sustain critical capabilities and 
suppliers.
    Rock Island Arsenal is a strategic part of the defense industrial 
base and has several manufacturing capabilities and skill sets. The 
Defense Logistics Agency considers the Arsenal a source of 
manufacturing supplies and materiel. Some of these capabilities 
include: (1) Heat Treating--Foundry Operation; (2) Casting (Steel, 
Aluminum, Titanium); (3) Forging (Open and Closed Die, Impression); (4) 
Non-Destructive Testing (Radiographic, Magnetic Particle, Liquid 
Penetrant, Ultrasonic, X-Ray); (5) Welding and Fabrication (Laser, 
Water-Jet); and (6) Engineering and Laboratory Services.
    The Army is ensuring the long-term health of facilities like Rock 
Island Arsenal within the AOIB by: (1) encouraging its organic 
facilities to enter into Public-Private Partnerships (PPP) with 
commercial firms to enhance organic capabilities and capacities to 
provide goods and services; and (2) identifying capabilities and 
capacities at organic facilities to ensure that workforces and 
infrastructures are aligned and sized properly, and remain a ready, 
responsive, and flexible source of support during future contingency 
operations.
    Question. When do you expect the Army Organic Industrial Base 
Strategic Plan, with its minimum arsenal-by-arsenal workload levels, to 
be released?
    Answer. The Army Organic Industrial Base Strategic Plan was signed 
by the Under Secretary of the Army on October 15, 2012. The Army report 
that includes minimum arsenal-by-arsenal workload levels (in Direct 
Labor Hours) will be provided to the Office of the Secretary of Defense 
in June 2013.
       high-mobility multipurpose wheeled vehicle new production
    Question. Secretary McHugh, the fiscal year 2013 Defense 
Appropriations Bill provided $100 million to begin a multiyear effort 
to modernize the aging high-mobility multipurpose wheeled vehicle 
(HMMWV) fleet in the Army Guard. The committee has been made aware of 
overwhelming support within the Adjutant General community for 
procurement of new production vehicles with these funds, and I have 
included in the record two letters from the National Guard Association 
of the United States as well as the Adjutants General Association of 
the United States that reflect this widely held position. Please 
consider these views as you work with the Guard on equipment needs.
    Answer. Thank you Senator. The Army is working closely with the 
Army National Guard and will strongly consider its views as we 
determine the best path forward to modernize the Guard's Light Tactical 
Vehicle fleet.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                    DISTRIBUTED COMMON GROUND SYSTEM

    Question. Secretary McHugh, I have a question for the record about 
the Distributed Common Ground System. It relates to cost and your 
reporting to Congress on this program. In this budget environment, it 
is important that accounting for this program be accurate and that all 
costs be reported to Congress as well as Army leadership so that we can 
all make informed decisions.
    On May 9, Dan Wagner in the Office of the Chief of Legislative 
Liaison responded to a letter about DCGS-A from the Council of Citizens 
Against Government Waste. That email from the Army stated that:
    ``The cost of the program is $10.2 billion over the life cycle of 
the program (FY05-FY34). The $28 billion quoted is not accurate because 
it includes the cost of training 58,000 intelligence soldiers no matter 
what system they are trained on. The costs are on par with other ACAT-I 
Major Defense Programs and we have incorporated efficiencies across the 
program.''
    It is our understanding that this particular section reference a 
capability production document (CPD) from 2011 which stated that the 
total costs of the program were $28 billion. The Army is now briefing 
that the cost is $10.2 billion and the difference in cost is justified 
in the email.
    From a budget perspective, please answer the following questions: 
Is there a method of cost accounting that permits the omission of 
training dollars?
    Answer. No. The official Army Cost Position (ACP) includes training 
costs as the process requires consideration of all life cycle costs 
related to developing, producing, fielding, and retiring a system. 
Finally, it is important to note that the estimated cost to develop, 
procure, train and sustain the Distributed Common Ground System-A 
(DCGS-A) through 2034 is $10.2 billion, as stated in the ACP developed 
on October 19, 2012. The $28 billion figure referenced in your letter 
comes from the Cost Benefit Analysis supporting the Capability 
Production Document which included $14 billion for Manpower 
Authorizations. The costs for training on the DCGS-A systems were 
included in both estimates. The costs for Soldier's basic intelligence 
training for all potential users that were part of the military 
intelligence community were not included in the ACP. These costs are 
still budgeted by the Army but not allocated to specific systems. DCGS-
A is just one of the systems that these individuals may operate.
    Question. Does the Army brief all programs independent of training 
money?
    Answer. No. Training money is included in the Army Cost Position 
for all Army programs. Training dollars that aren't specific to the 
system, e.g., Soldier's basic training, are excluded in certain 
affordability briefings because these costs are funded outside of the 
particular program.
    Question. How do you account for congressional decisionmakers being 
briefed on different numbers than Army leadership and OSD?
    Answer. Congress, the Army leadership, and OSD were all provided 
the Army Cost Position, which is the Army's official estimate for the 
total life cycle cost of a program. The ACP is the predicate document 
used to prepare the Acquisition Program Baseline and the Major 
Automated Information System Annual Report to Congress.
    Question. Could you provide a budget document that appropriately 
counts the training dollars in 5, 10, and 20-year windows?
    Answer. Yes. The Army Cost Position (ACP) provides the total life 
cycle cost of a program (2005-2034). It includes the training cost by 
year. Training costs are included in the procurement funding for the 
program. The following table provides the training cost per year for 
the DCGS-A Increment 1 program.

                                             [In million of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal year
                                         -----------------------------------------------------------------------
                                           2013    2014    2015    2016    2017    2018    2019    2020    2021
----------------------------------------------------------------------------------------------------------------
Training Funding........................    19.2    27.7    37.2    34.9    30.7     1.7     5.2     7.4     7.3
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal year
                                         -----------------------------------------------------------------------
                                           2022    2023    2024    2025    2026    2027    2028    2029    2030
----------------------------------------------------------------------------------------------------------------
Training Funding........................     7.4     5.3     2.7     6.7     6.8     7.7     8.4     6.8     0.0
----------------------------------------------------------------------------------------------------------------

            OVERSEAS CONTINGENCY OPERATIONS BUDGET SHORTFALL

    Question. After the Army exhausts its portion of the defense 
reprogramming authority, the Army will face a $3.3 billion shortfall in 
its Overseas Contingency Operations budget.
    Does this put our Soldiers in Afghanistan and in other places 
around the globe at risk?
    Answer. Although we are still assessing the impacts of the fiscal 
year 2013 budget on readiness and training, deploying units remain the 
number one priority. Fiscal year 2013 budget uncertainty has delayed 
the Army's ability to refocus the training of contingency forces on 
conventional threats and required the Army to accept risk in meeting 
force deployment timelines in Combatant Commander Operational Plans. 
Only units with high-priority missions are able to fully prepare. Lower 
priority units will not be able to fully execute broader-focused 
training strategies because they must constrain training activity to 
the squad/crew/team level. These forces will require additional time to 
prepare for an unforeseen contingency or will have to be deployed at 
less than full effectiveness, which will increase the risk. If units 
are deployed before being fully trained, operational commanders will 
have to use all available time to continue to prepare and assess 
whether mission requirements warrant the risks of force employment or 
offer alternatives. We continue to work with OSD on solutions to the 
Overseas Contingency Operations shortfall to mitigate these effects.
    Question. What is the Army doing to mitigate this shortfall?
    Answer. The Army is working diligently with the Department of 
Defense (DOD) to mitigate the Overseas Contingency Operations (OCO) 
shortfall. The Department recently submitted two reprogramming actions 
for fiscal year 2013 that use all the OCO special transfer authority 
and all but $200 million of general transfer authority for fiscal year 
2013. Congressional approval of the reprogramming actions, as 
submitted, will help reduce Army's current OCO shortfall from $8.3 
billion to $3.3 billion The Army's OCO requirements for this 
reprogramming request are $5 billion, of which $4.2 billion comes from 
internal Army sources. The Army is continuing to work with United 
States Forces--Afghanistan and all other OCO stakeholders to reduce the 
remaining $3.3 billion. To address the remaining OCO shortfall, we are 
exploring a Joint/DOD solution. Without a Joint solution or 
supplemental request, we would be forced to identify an internal Army 
solution creating extreme risk in fiscal year 2013/2014 readiness.

                    COMBAT TRAINING CENTER ROTATIONS

    Question. The Army reports that it has cancelled between 6 and 10 
Combat Training Center (CTC) rotations in response to the $3.3 billion 
OCO shortfall. Outstanding training through the Joint Readiness 
Training Center (JRTC) at Fort Polk ensures our Soldiers' readiness as 
they deploy to war, and it prepares them for unexpected military 
contingencies.
    How will these cancellations impact our military's readiness over 
time?
    Answer. Any unit that did not conduct a Combat Training Center 
(CTC) rotation in fiscal year 2013 is not prepared to execute Decisive 
Action against Hybrid Threats in the event of a contingency mission. 
Unless significant additional funds are generated to retrain these 
units and recoup lost readiness, these same units will not be prepared 
to deploy until completion of the unit's next Force Generation cycle. 
Our CTC program not only serves as a culminating training event to 
build readiness for a broader range of missions, but it also provides a 
critical leader development experience for commanders and 
noncommissioned officers (NCOs) at all echelons. Curtailing CTC 
rotations mortgages the leader development of the force over the longer 
term.
    Question. Since the Army has reduced the number of JRTC rotations 
in fiscal year 2013, will you try to increase the number of rotations 
in fiscal year 2014?
    Answer. The Army is already planning to execute 10 Combat Training 
Center (CTC) rotations at JRTC in fiscal year 2014. With additional 
funding, the Army could execute one additional CTC rotation at that 
same center. If provided additional funds, we could execute three 
additional rotations-one at each Maneuver Combat Training Center (JRTC, 
NTC, and JMRC).
    However, the Army is still assessing the effects of limiting non-
assigned forces to squad/platoon level training. Given the low level of 
readiness at which units will enter fiscal year 2014, we need to ensure 
units have the time to build readiness in order to fully take advantage 
of a CTC event.
    Question. How long will it take readiness to recover from the 
reduction in training?
    Answer. Our analysis indicates that it will take the Army 2 years 
to return to the readiness levels we had prior to sequestration.
    Ultimately the time required by non-deploying forces to restore 
readiness will depend largely on how far their readiness slips in 
fiscal year 2013 and beyond. The longer the Army is forced to operate 
within a fiscally constrained environment, the longer it will take 
readiness to fully recover. The Army is still working to meet fiscal 
year 2013 Overseas Contingency Operations (OCO) funding requirements, a 
challenge made more manageable if Congress approves the reprogramming 
action submitted by the Department. Even if approved, the Army still 
faces a $3.1 billion shortfall.
    Full readiness by a Brigade Combat Team (BCT), for example, is 
achieved through a period of training beginning at homestation and 
culminating in a training event at a Combat Training Center (CTC). It 
takes approximately 1 year for a BCT to go through reset and train up 
to support unified land operations. Cuts to unit training budgets have 
curtailed this process for all but the highest priority units.
    The required number of ready BCTs per year is approximately 15. The 
Army anticipates funding 13 rotations at the various CTCs in fiscal 
year 2014 (of these 13, 9 BCTs are deploying), and 20 rotations in 
fiscal year 2015. This means that from a training perspective, 
readiness should sufficiently recover in fiscal year 2016 if the Army 
is adequately funded in fiscal year 2014 and beyond. If, however, the 
fiscal environment in fiscal year 2014 is similar to fiscal year 2013, 
it will take even longer for Army readiness to recover.

                        NATIONAL GUARD--AVIATION

    Question. What is the Army doing to ensure that sufficient upgraded 
air assets such as the Blackhawk helicopter remain with the National 
Guard to adequately respond to natural disasters?
    Answer. In keeping with the Total Army Concept, the Army will 
maintain Black Hawk Helicopters in the Army National Guard (ARNG) while 
continuing to modernize its aircraft for sustained interoperability 
with the Active Component fleet.
    Our plan to modernize the Army National Guard Black Hawk is a 
multi-tiered strategy which modernizes the current Black Hawk Fleet 
through new production HH/UH-60M aircraft (PB13 procures 31 H-60M for 
ARNG), through the UH-60A to UH-60L Recapitalization Program (RECAP, 48 
ARNG H-60A aircraft in progress), and beginning in fiscal year 2018, 
through a cockpit digitization program for the Army's remaining H-60L 
Black Hawk aircraft fleet being retained.
    Currently, the ARNG has 100 percent of their authorized 849 
Blackhawk aircraft on-hand. Of the 849 Black Hawks, 45 percent are 
upgraded with an additional 5.6 percent in the H-60A to H-60L RECAP 
program. The ARNG currently has 78 H-60M and 303 H-60L aircraft on hand 
and will continue to receive H-60M and H-60L aircraft to equip the ARNG 
to their full requirement of 432 H-60M and 417 H-60L Digital aircraft.
    ARNG aircraft transfers to other components that exceed 90 days are 
paid back according to the Secretary of Defense's pre-approved payback 
plan per Department of Defense Instruction (DODI) 1225.06 policy. 
Additionally, this policy serves as a safeguard to preserve sufficient 
quantities of aircraft within the ARNG to perform its title 32 
responsibilities.
    Additionally, the Army has funded the ARNG's full requirement of 
the UH-72A Lakota Light Utility Helicopter (LUH) which is specifically 
designed for operation in permissive environments, such as for domestic 
natural disasters.

                            FORCE REDUCTIONS

    Question. When will force reductions be announced?
    Answer. The Army will reduce its force structure in order to 
achieve the fiscal reductions required by the Budget Control Act of 
2011, consistent with the National Military Strategy. The Army 
announced its drawdown plan on June 25, 2013. If sequestration remains 
unaltered, the Army will be forced to consider further reductions in 
fiscal year 2014.
    Question. When will we learn how the Army plans to restructure its 
brigades?
    Answer. Decisions on restructuring BCTs with an additional maneuver 
battalion, a brigade engineer battalion, and other design improvements 
were included with the force reductions announcement on 25 June 2013.

                               EXPLOSIONS

    Question. We have had at least two explosions at Camp Minden due to 
the improper storage of explosive propellant. What is the Army prepared 
to do to assist in the proper disposition of the explosive material?
    Answer. Explo Systems, Inc. owns and stores explosives under a 
lease with the Louisiana National Guard (LANG), at Camp Minden. The 
Secretary of the Army has authority to provide technical assistance, 
upon request, to assess the potential explosive hazards associated with 
stored explosives. From April 2-3 and May 6-9, 2013, the Army 
dispatched a team of explosives safety experts to Camp Minden to 
conduct a Technical Assistance Visit (TAV). Technical reports were 
provided to the Louisiana State Police (LASP) and LANG with findings 
and recommendations for their consideration. On May 20, 2013, the 
Adjutant General, LANG determined that the explosives had been in 
proper storage.
    The first TAV assessed the potential explosive hazards associated 
with approximately 18 million pounds of M6 propellant that Explo stored 
at Camp Minden. The second TAV assessed the potential hazards 
associated with other explosives (approximately 2.5 million pounds) 
that Explo stored at Camp Minden. At LASP's and LANG's request, the 
second TAV provided recommendations for improving explosives safety and 
for the disposition of these explosives, to include the 15 million 
pounds of M6 remaining at Camp Minden. The TAV team also identified 
some explosives that posed an explosive hazard and recommended the LASP 
request follow-on technical assistance from the Army. LASP requested 
Army Explosive Ordinance Disposal (EOD) provide this assistance and 
provide LASP approaches for handling and disposing of this material 
safely. EOD will provide this technical assistance by June 14, 2013.
    LANG and LASP, in conjunction with other State and local 
authorities, are working to determine the actions to be taken with 
regard to the disposition of the Explo's explosives at Camp Minden. 
Upon request by these State agencies, further technical assistance may 
be provided.

                             SEXUAL ASSAULT

    Question. Does the scope of the Army's sexual assault program go 
beyond soldiers in uniforms to family members, and the Total Army 
community?
    Answer. Yes, the Army's program includes the Total Army community. 
The Army's prevention and training program provides commands with 
training materials intended for Soldiers and Civilians, with 
corresponding annual training requirements for the Total Force.
    For victim care, the Sexual Harassment/Assault Response and 
Prevention (SHARP) Program provides care to all Soldiers and their 
family members 18 years or older who are eligible for treatment in the 
military healthcare system. Other Army programs care for victims of 
child abuse or sexual assaults perpetrated by a spouse or intimate 
partner.
    Civilians and their families stationed overseas who are victims of 
sexual assault are eligible for treatment at a military treatment 
facility and assistance from a Victim Advocate. Civilians and their 
family members, however, are only eligible to file an unrestricted 
report.
    U.S. citizen DOD contractor personnel, when they are authorized to 
accompany the Armed Forces in overseas contingencies, are eligible for 
treatment at a military treatment facility and assistance from a Victim 
Advocate. Contractors are also only eligible to file an unrestricted 
report.
    Question. There has been a lot of discussion about sexual assault 
prevention policies at the most senior levels of the organization. 
Please discuss the unit victim advocate program at the lowest levels of 
the Army and whether you feel having unit victim advocates is working, 
or not.
    Answer. Army policy mandates that battalion and equivalent sized 
units appoint two collateral-duty unit victim advocates (UVA). 
Commanders may appoint additional UVAs if necessary for very large 
battalions or units that are geographically dispersed. Anecdotal 
feedback from the field indicates that the current structure with the 
UVAs as a collateral duty works well for commands, giving them trained 
personnel that supplement and enhance the capabilities of full-time 
Sexual Assault Response Coordinators (SARC) and SAPR Victim Advocates 
(VA) maintained at the brigade level. The Army is taking a hard look at 
the roles, responsibilities, and qualifications of the SARCs and VAs to 
ensure the optimal continuum of victim care from time of report through 
post-case disposition.
    Question. What are the ``metrics of success'' to evaluate how some 
of these programs are working?
    Answer. The definitive metric is the number of sexual assaults. 
However, given that sexual assault is the most under-reported crime in 
the Nation, this metric, by itself, can be misleading. Therefore, the 
Army's Sexual Harassment/Assault Prevention Strategy has corresponding 
goals to reduce sexual assault while increasing victims' propensity to 
report. Survey data indicates that female Soldier victims' propensity 
to report has increased to 42 percent in 2012 from approximately 28 
percent in 2009.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor

                  CRITICAL MANUFACTURING CAPABILITIES

    Question. Secretary McHugh, at the May 22, 2013 appropriations 
hearing you indicated that to the best of your knowledge the Army has 
not made a recommendation to the DOD on Arsenal workload levels to 
retain critical manufacturing capabilities. Given that the DOD is 
required to submit a report to Congress on the workload levels to 
retain critical manufacturing capabilities, will the Army make a 
recommendation based on the direct labor hours required, or a dollar 
value, similar to the depot ``50-50 rule''?
    Answer. As requested by Senate Report 112-73 of the fiscal year 
2013 National Defense Authorization Act, the Army identified: (1) 
critical manufacturing capabilities and capacities at the three 
Arsenals; and (2) the proper workload levels (in Direct Labor Hours) 
required to sustain these capabilities. The report was completed on May 
7, 2013 by the Army Materiel Command, and it is currently under 
staffing to the Office of the Secretary of Defense. It will be 
submitted to the Congressional Defense Committees later this summer.
    Question. Secretary McHugh, the arsenal workload level to retain 
critical manufacturing capabilities does not guarantee that the 
arsenals will remain a cost effective solution for production. Will any 
recommendation the Army makes related to retaining critical 
manufacturing capabilities take into consideration the workload level 
required to remain cost effective?
    Answer. The Army recognizes that identifying arsenal workload 
levels to retain critical manufacturing capabilities does not guarantee 
the arsenals will remain a cost effective solution for production. The 
Army is making recommendations to the Office of the Secretary of 
Defense on the critical manufacturing capabilities residing at the 
arsenals and the proper workload levels (in Direct Labor Hours) 
required to keep these facilities operational. As requested by Senate 
Report 112-73 of the fiscal year 2013 National Defense Authorization 
Act, the Army identified: (1) critical manufacturing capabilities and 
capacities at the three Arsenals; and (2) the proper workload levels 
(in Direct Labor Hours) required to sustain these capabilities. The 
report was completed on May 7, 2013 by the Army Materiel Command, and 
will be submitted to the Congressional Defense Committees later this 
summer.

                      PUBLIC PRIVATE PARTNERSHIPS

    Question. Encouraging Public Private Partnerships is a significant 
element of the Army's strategy to strengthen the industrial base. 
Within the acquisition process, how is the Army encouraging Public 
Private Partnerships, and utilization of arsenal facilities and 
workforce?
    Answer. The Army is encouraging Public Private Partnerships (PPPs) 
and the utilization of arsenal facilities and workforce as part of the 
acquisition process, to deal with some of the many challenges. PPPs are 
a significant element of the Army's strategy to strengthen the 
industrial base. They also sustain production lines and other systems, 
as well as the critical skill sets of our Nation's industrial artisans. 
In executing partnerships, the Army Industrial Base depots, arsenals, 
plants, and centers provide services that are either not available in 
the private sector or have demonstrated to be not cost-effective for 
private industry to provide. The Army is pursuing efforts to identify 
PPP opportunities in Acquisition Strategies and plans to fully leverage 
the power of partnerships to enhance and preserve Army's unique organic 
industrial facilities, processes, and personnel while offering private 
industry access to those capabilities for mutual benefit.
    Currently, the Army is focused on implementing its Organic 
Industrial Base (OIB) strategic plan that promotes PPPs between the 
organic depots, arsenals and the original equipment manufacturers (OEM) 
to develop complementary capabilities without incurring undue risk. 
Through these PPPs, workloads will be shared between the OIB facilities 
and OEM partners for the following purposes: (1) to ensure core depot 
logistics and arsenal manufacturing competencies are established and 
sustained at the selected organic Depots and Arsenals; (2) to share 
investments, reduce overall risks, and take advantage of best business 
practices that will benefit both the public and private sectors; (3) to 
reduce life cycle costs of weapon systems or stabilize labor rates at 
the OIB facilities (PPPs that share investment costs, promote the dual 
use and transfer of start-up equipment, and/or provide for the joint-
use of facilities offer potential cost reductions); (4) to enhance the 
mission capability of the OIB industrial facilities; and (5) to create 
or maintain an industrial base capability.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

         TERMINAL HIGH-ALTITUDE AREA DEFENSE DEPLOYMENT TO GUAM

    Question. Secretary McHugh, as part of the new Missile Defense 
deployment strategy, the Department of Defense decided to deploy a 
Terminal High Altitude Defense battery to Guam. Is the Army 
appropriately resourced in fiscal year 2013 and budgeted in 2014 to 
support this recent decision?
    Answer. The deployment of Terminal High-Altitude Area Defense 
(THAAD) to Guam was not budgeted in fiscal year 2013, and the fiscal 
year 2014 budget submission likewise does not provide funding. The 
THAAD deployment cost in fiscal year 2013 is $15 million, and we 
estimate the fiscal year 2014 cost to be at a minimum $10 million. This 
un-forecasted requirement will be paid from readiness accounts, which 
were already stressed due to sequestration. The Army is still working 
to meet fiscal year 2013 Overseas Contingency Operation (OCO) funding 
requirements, a challenge that will be made more manageable if Congress 
approves the reprogramming action submitted by the Department. Even if 
approved, we are still faced with a $3.1 billion OCO shortfall, which 
will put more pressure on our base-funded accounts.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

                          BRIGADE COMBAT TEAMS

    Question. Secretary McHugh, in your testimony before this committee 
last year, you outlined the Army's plan to eliminate at least eight 
Brigade Combat Teams (BCTs) due to the end of the Iraq War and the 
drawdown in Afghanistan.
    What is the exact methodology involved in making the determination 
regarding which BCTs will be eliminated? For example, will a full range 
of an installation's assets, such as installation facilities, cost of 
operations and servicemember quality of life be factored into the 
methodology?
    Answer. The Army realignment and stationing decisions are based on 
quantitative and qualitative factors that ensure that the Army is 
properly stationed at installations where it can best train and deploy 
to meet the Army's worldwide mission.
    To begin its analysis, the Army uses the Military Value Analysis 
(MVA) model to evaluate five broad operational categories critical to 
Brigade Combat Teams (BCTs) including: (1) Training; (2) power 
projection; (3) well-being; (4) mission expansion; and (5) geographic 
distribution. Within each category, the Army weighs a number of 
attributes. For example, in analyzing an installation's ability to 
support training, the Army considers available maneuver land, range 
sustainability, training facilities, indirect fire capabilities, and 
available airspace. Power projection considerations include an 
installation's deployment infrastructure, aerial port of embarkation 
and sea port of embarkation proximity. Factors that impact Soldier 
well-being include access to medical care, family housing availability, 
the general quality of life of an installation (e.g., access to Army 
Community Services, child care development centers, fitness centers, 
chapels, and youth centers), and the quality and quantity of brigade 
facilities and barracks. Mission expansion considerations include 
buildable acres, urban sprawl, and telecommunications infrastructure. 
Finally, we will look at geographic distribution by evaluating the 
dispersion of the Army's BCTs in order to support civil authorities for 
disaster response, minimize vulnerability to a catastrophic attack or 
natural disaster, and keep our all-volunteer force connected to the 
American people.
    To ensure community input and understanding, the Army recently 
completed Community Listening Sessions at 30 installations to explain 
the process the Army is using to make these difficult decisions and to 
receive community input before any final decisions are made. The Army's 
brief detailed the operational categories contained in the MVA model as 
well as an overview of the qualitative factors outside the MVA model, 
to include strategic considerations, command and control proximity, 
costs and efficiencies, and readiness, environmental, and socioeconomic 
impacts.
    Using the MVA model scores as a base, the Army applies the 
qualitative factors and support to National Defense Strategy to 
evaluate various courses of action in order to reach an optimal 
stationing solution that is both feasible and acceptable.
    Question. What is the Army's schedule for implementing this plan?
    Answer. BCT inactivations, if approved, would begin in fiscal year 
2014 and continue through fiscal year 2017. However, if sequestration 
continues, it will be accelerated considerably.
  relocating leadership development and assessment course to fort knox
    Question. Secretary McHugh, on December 4, 2012, I wrote 
Undersecretary of the Army, Dr. Joseph Westphal, regarding the 
potential relocation of the Leadership Development and Assessment 
Course (LDAC) to Fort Knox under the U.S. Army Cadet Command and why I 
believe such a move would be prudent. Dr. Westphal--in his January 2, 
2013 response--noted the benefits of relocating LDAC to Fort Knox, 
stating the move ``. . . would simplify command and control, reduce 
redundancies, and create new efficiencies that would improve the 
effectiveness of our Reserve Officers' Training Course (ROTC) 
training.'' In light of the benefits such a move would provide--and 
which Dr. Westphal highlights in his response--and the fact that I 
wrote the Army on this matter over 5 months ago.
    Please provide me with information on: What is causing the delay in 
announcing this move?
    Answer. A final decision has not yet been made to relocate LDAC. 
The Army is deliberately and thoroughly reviewing all stationing 
options to meet the Nation's needs in an era of reduced resources. LDAC 
is a major component of the U.S. Army Cadet command's training program, 
and we seek to ensure any potential moves are consistent with our goal 
of improving the effectiveness of our Reserve Officers' Training Corps 
training.
    Question. Please provide me with information on: When the Army 
plans to make its final announcement.
    Answer. There is no projected date for the final decision on 
relocating the LDAC. The Army will make a decision on relocation when 
it has a better overall view of the final Army stationing decisions.
                                 ______
                                 
           Questions Submitted to General Raymond T. Odierno
            Questions Submitted by Senator Richard J. Durbin

                          ARMY COMBAT UNIFORMS

    Question. General Odierno, since 2002 the military services have 
introduced seven new camouflage uniforms with varying patterns and 
colors. The Army is now planning to replace the Army Combat Uniform 
with a new combat uniform. Why is this change necessary?
    Answer. The Army continuously seeks improvements to the combat 
clothing worn by our warfighters. Our combat and materiel developers 
routinely assess capabilities desired, using periodic survey and 
lessons learned feedback from Soldiers and unit leaders, and evolving 
technological improvements to ensure the uniforms worn by our Soldiers 
in combat and in garrison are meeting the Army's needs.
    The Army recently completed a comprehensive scientifically based 
Phase IV Camouflage study, which constituted the most extensive uniform 
camouflage study ever undertaken with extensive Soldier involvement. 
The Army designed a scientifically rigorous evaluation program, 
studying the performance of camouflage in a wide variety of terrains, 
vegetation, and times of day. Initial decisions and recommendations 
have been provided to senior Army leaders, and the Army is anticipating 
a final decision during first quarter of fiscal year 2014.
    The Army's plan concerning camouflage patterns does not affect the 
materials, design, cut, functionality, or any other aspects of the 
current Army Combat Uniform which was introduced in 2004 and continues 
being used today in Afghanistan. The only change being considered is 
the color of the cloth used in the construction of the Army Combat 
Uniform. Camouflage is critical to concealment, and concealment 
requirements change with mission, climate and terrain of deployments. 
To fully utilize this key element of force protection, the Services 
must retain the flexibility to change camouflage to meet emergent 
operational demands. This is exemplified by the 2009 House 
Appropriations Subcommittee on Defense direction to develop a new 
camouflage pattern specific to the needs of units operating in 
Afghanistan. As a result of this directive, the Army developed and 
issued to deploying Soldiers the Operation Enduring Freedom Camouflage 
Pattern on the Army Combat Uniform, which significantly improved 
concealment for that theater.
    Question. Have you coordinated with any of the other services on 
developing a joint uniform instead of continuing the costly trend of 
developing service-specific uniforms?
    Answer. In response to section 352 of the fiscal year 2010 National 
Defense Authorization Act (Public Law 111-84), the Army partnered with 
the other Services and approved common technical performance standards 
for all ground combat uniforms. The Joint Clothing and Textile 
Governance Board (JCTGB), which also includes the Office of the 
Secretary of Defense and the Defense Logistics Agency, approved the 
joint criteria for implementation across all Services. Through their 
work as part of the JCTGB, the Services actively coordinate and 
standardize, where appropriate, clothing and textile acquisition 
activity.
    Question. How much has the Army spent since 2002 on these new 
uniforms?
    Answer. Since fiscal year 2002, the Army has spent approximately 
$9.7 million on researching, testing, and evaluating camouflage, as 
follows.
    The Army spent $2.63 million testing camouflage patterns in support 
of its decision to implement the Universal Camouflage Pattern.
    In response to 2009 legislation directing the Army to provide a 
combat uniform with a camouflage pattern that was suited to the 
environment of Afghanistan, the Army undertook a four-phased program. 
In Phases I through III, the Army spent $2.9 million in fiscal year 
2009 and fiscal year 2010 for test and evaluation of multiple 
camouflage patterns both in the United States and in Afghanistan. This 
effort resulted in the selection of the Operation Enduring Freedom 
Camouflage Pattern for those deployed to Afghanistan. Phase IV was 
conducted to determine a long-term camouflage approach for the Army 
that would result in suitable alternate camouflage pattern uniforms 
that would effectively conceal Soldiers in a variety of environments. 
The Army has spent $4.2 million from fiscal year 2011 through fiscal 
year 2013 on the Phase IV effort.
    Question. How much is in the fiscal year 2014 request for a new 
uniform?
    Answer. No funds are requested in fiscal year 2014 for development 
and testing of a new uniform.

                 WARFIGHTER RESPIRATORY HEALTH RESEARCH

    Question. General Odierno, how much is the Army currently spending 
annually on warfighter respiratory health research?
    Answer. The projected Defense Health Program (DHP) budget request 
for fiscal year 2014 is $1,400,000 for respiratory health research. 
Prior years contained some DHP core funds, Army core funds and 
Congressional Special Interest (CSI) funding for 1 year of the Military 
Burn Trauma Research as shown below:

                                  RESPIRATORY HEALTH FUNDING BY SOURCE--PROGRAM
----------------------------------------------------------------------------------------------------------------
                                                                           Fiscal year
                                                ----------------------------------------------------------------
                                                                                                         2014
                                                     2010         2011         2012         2013     (requested/
                                                                                                     programmed)
----------------------------------------------------------------------------------------------------------------
DHP Core--Joint Program Committee 5  Funding...   $2,262,000   $1,232,000   $1,288,000     $655,000   $1,400,000
Army Core--Military Operational Medicine           1,975,000    2,997,000    1,006,000      828,000  ...........
 Research Program Funding......................
CSI--Combat Casualty Care Research Program       ...........  ...........    5,100,000  ...........  ...........
 Funding.......................................
----------------------------------------------------------------------------------------------------------------

                 WARFIGHTER RESPIRATORY HEALTH RESEARCH

    Question. Where does this fall in the order of priorities for Army 
medical research?
    Answer. The research task area ``Pulmonary Health in Deployed 
Environments'' is ranked 9th among 20 jointly prioritized Defense 
Health Program Military Operational Medicine task areas.
    Question. To what extent do respiratory diseases affect our 
deployed service members?
    Answer. Issues of respiratory disease occur at a lower incidence 
than other military injuries. Epidemiology and clinical studies are 
evaluating the available data.
    New onset asthma and other ``respiratory symptoms'' (persistent or 
recurring cough, shortness of breath, chronic bronchitis or emphysema) 
is 1.4-2 times more frequent in deployed Service members than in those 
who were not deployed. In a study of 46,000 Millennium Cohort 
participants, 10 percent of non-deployers and 14 percent of deployers 
reported new onset respiratory symptoms. Most of these cases do not 
seem to be severe. Only about 1 percent of respondents reported Chronic 
Obstructive Pulmonary Disease (COPD) in the Millennium Cohort 
regardless of deployment status.
    Of the 17,000 respiratory disease cases coded in the Army's 
electronic medical record system, AHLTA, (2005-2009), the vast majority 
are sleep disorders (53 percent) with the next ICD-9 category being 
asthma evaluation (41 percent). Of the 17,000 cases, there were about 
1,000 severe diseases coded, mostly interstitial lung disease and COPD. 
There were only 4 confirmed cases of constrictive bronchiolitis. A 
potentially confounding issue for some epidemiological studies is that 
about 20 percent of recruits display some baseline clinical 
(spirometric) respiratory abnormality upon screening before deployment 
in contrast to about 4 percent who report a history of asthma.

       HIGH-MOBILITY MULTIPURPOSE WHEELED VEHICLE NEW PRODUCTION

    Question. General Odierno, the fiscal year 2013 Defense 
Appropriations Bill provided $100 million to begin a multiyear effort 
to modernize the aging high-mobility multipurpose wheeled vehicle 
(HMMWV) fleet in the Army Guard. The Committee has been made aware of 
overwhelming support within the Adjutant General community for 
procurement of new production vehicles with these funds, and I have 
included in the record two letters from the National Guard Association 
of the United States as well as the Adjutants General Association of 
the United States that reflect this widely held position. Please 
consider these views as you work with the Guard on equipment needs.
    Answer. Thank you Senator. The Army is working closely with the 
Army National Guard and will strongly consider its views as we 
determine the best path forward to modernize the Guard's Light Tactical 
Vehicle fleet.
                                 ______
                                 
             Question Submitted by Senator Dianne Feinstein

                    RAND CORPORATION--ARROYO CENTER

    Question. General Odierno, the RAND Corporation is a non-profit 
research institution whose headquarters and largest facility is located 
in my state. As you know, they operate the Army's only federally Funded 
Research and Development Center, the Arroyo Center. I understand that 
due to the unintended effects of an Army-requested billing change 
combined with an automated budget process outside of Army's control, 
the fiscal year 2014 line item request for Arroyo was erroneously 
reduced by $9.3 million below what it was supposed to have been. This 
erroneous decrement represents a 44-percent reduction below the 
intended request. If not fixed, this error would represent a 
substantial reduction below the current funding level which could 
jeopardize the Arroyo Center's ability to maintain the subject matter 
expertise required of it by the Army.
    Is this assumption accurate? If so, will the Army seek to restore 
the funding to $21.239 million for fiscal year 2014?
    Answer. Yes, the Army will work to restore RAND Arroyo's funding to 
$21.239 million for fiscal year 2014. Without congressional action to 
restore RAND's funding, Army will be forced to address the $9.3 million 
shortfall during the year of execution within our existing transfer 
authorities. Army expects to do all it can to maintain the historical 
level of effort from RAND in fiscal year 2014. We would appreciate any 
help from the committee in this matter.
                                 ______
                                 
              Questions Submitted by Senator Mark L. Pryor

                             SEXUAL ASSAULT

    Question. General Odierno, specific to incidents of sexual assault 
and sexual harassment, is the Army studying differences in command 
climate surveys results for units that are deployed versus units that 
are at home station?
    Answer. The Army does not currently study the differences in 
command climate surveys between units at home station and those that 
are deployed; however, as the Army begins elevating the reporting of 
command climate surveys to the Division level, we will incorporate this 
analysis in our way ahead.
    Question. General Odierno, is the Army finding a higher incidence 
of sexual assault while a unit is deployed? Is that being studied?
    Answer. The rate of reported sexual assaults for deployed Soldiers 
has consistently been lower than that for the Army as a whole. In 
fiscal year 2012, the rate of reported sexual assaults per 1,000 
Soldiers was 2.2 for the Army and 1.9 for CENTCOM area of 
responsibility. The data also shows that there has been an increase in 
deployed Soldiers' propensity to report, and it is now comparable to 
the overall Army rate.
    Question. General Odierno, is there a specific period of time where 
the prevalence of sexual assault increases, i.e. pre-deployment, during 
deployment, within the first 90-day period following a deployment, 
etc.? Is that being studied?
    Answer. Army does not specifically track prevalence of sexual 
assault pre- or post-deployment. However, the Army recognizes that 
deployment provides additional stresses on Soldiers. To help address 
this, annual unit level sexual assault awareness and pre- and post-
deployment Sexual Harassment/Assault Response and Prevention (SHARP) 
training is mandatory.

                               RETROGRADE

    Question. General Odierno, given the increase in cost to retrograde 
equipment out of Afghanistan as a result of increased reliance on the 
northern distribution network, and as a member of the Joint Chiefs, can 
you discuss the scope of the retrograde mission in Afghanistan in terms 
of volume of cargo, movement timelines, and costs?
    Answer. As of May 2013, we have 1.3 million pieces of equipment in 
Afghanistan worth $25 billion, of which we will retrograde 
approximately 734,000 pieces worth $19 billion. Over the past month, 
retrograde times ranged from 65 to 160 days: multi-modal 65 days; 
Pakistan Ground Lines of Communication 82 days; and Northern 
Distribution Network 160 days. We estimate the retrograde of Army 
equipment will cost between $1.8 billion and $3.2 billion in Overseas 
Contingency Operations funding; however, a worst case scenario, in 
which all equipment must be flown from Afghanistan directly to the 
United States by military aircraft, could cost as much as $6 billion.
    Question. General Odierno, has the Army identified all equipment 
and property that require retrograde out of Afghanistan, and projected 
the cost?
    Answer. Yes, the Army has a deliberate process to determine the 
retention and disposition of equipment currently on ground in 
Afghanistan. We will retrograde equipment to meet approved 
requirements. Conversely, we will divest excess equipment for which 
there is not a validated requirement. Of the 1.3 million pieces of 
equipment in Afghanistan worth $25 billion, we will retrograde 
approximately 734,000 pieces worth $19 billion at a cost between $1.8 
billion and $3.2 billion in Overseas Contingency Operations funding; 
however, a worst case scenario, in which all equipment must be flown 
from Afghanistan directly to the United States by military aircraft, 
could cost as much as $6 billion.
    Question. General Odierno, how is the lack of a status of forces 
agreement between Afghanistan and US/NATO forces affecting your ability 
to plan for retrograde operations?
    Answer. The lack of a Status of Forces Agreement is not currently 
affecting the Army's ability to plan for retrograde operations. Current 
plans for retrograde, base closures/transfers, and materiel reduction 
are associated with the President's directive to reduce troops levels 
to 34,000 by 12 February 2014 and further reduce forces by December 
2014. The current Military Technical Agreement from NATO and U.S. 
Diplomatic Note from U.S. Forces-Afghanistan, which provide freedom of 
movement for retrograde operations, will expire on 31 December 2014, at 
which point the lack of a Status of Forces Agreement would present 
challenges to planning for any U.S. military presence remaining after 
31 December 2014.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

         TERMINAL HIGH-ALTITUDE AREA DEFENSE DEPLOYMENT TO GUAM

    Question. General Odierno, in the fiscal year 2013 budget request, 
the Department of Defense reduced the number of Terminal High-Altitude 
Area Defense (THAAD) batteries from nine to six. Considering today's 
evolving ballistic missile threats, is six still the correct number of 
THAAD batteries; is greater risk being accepted than originally 
planned?
    Answer. The currently programmed six Terminal High-Altitude Area 
Defense (THAAD) batteries (two operationally available) will not meet 
Combatant Command (COCOM) demand. Previously, The United States 
Strategic Command Joint Functional Component Command for Integrated 
Missile Defense assessed an operational requirement for nine THAAD 
batteries. In response to continued COCOM demand for THAAD 
capabilities, the Office of the Secretary of Defense's (OSD) 10 April 
2013 Resource Management Decision 700 Memorandum directed the Army, in 
coordination with the OSD Acquisition, Technology and Logistics, the 
OSD Cost Assessment and Program Evaluation Office, the Joint Staff, the 
Missile Defense Agency (MDA), and the COCOMs, to conduct an analysis to 
determine the current requirements for additional THAAD batteries and 
associated interceptors. Results of that study are due in July 2013 and 
will inform future procurement decisions. In the interim, Army and the 
MDA are working closely to achieve additional capability. The Army has 
programmed the force structure for a seventh THAAD battery and the MDA 
is planning to include the equipment in its Program Objective 
Memorandum 15 submission. This will provide an increased capability to 
source COCOM demands and better maintain the health of the force.

                          SUBCOMMITTEE RECESS

    Senator Durbin. The Defense Subcommittee now stands in 
recess.
    [Whereupon, at 10:34 a.m., Wednesday, May 22, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
